<html>
<title> - ONE YEAR LATER: THE AMERICAN INNOVATION AND COMPETITIVENESS ACT</title>
<body><pre>[Senate Hearing 115-654]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-654

    ONE YEAR LATER: THE AMERICAN INNOVATION AND COMPETITIVENESS ACT

=======================================================================

                               HEARING

                              BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-300 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e3e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>              
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 30, 2018.................................     1
Statement of Senator Gardner.....................................     1
Letter dated January 30, 2018 to Hon. John Thune and Hon. Bill 
  Nelson from Ted M. Wackler, Deputy Chief of Staff and Assistant 
  Director, Office of Science and Technology Policy, Executive 
  Office of the President........................................    23
Statement of Senator Nelson......................................     2
Statement of Senator Peters......................................     4
Statement of Senator Cortez Masto................................    29
Statement of Senator Thune.......................................    32
Statement of Senator Hassan......................................    34
Statement of Senator Markey......................................    40

                               Witnesses

Dr. France Cordova, Director, National Science Foundation........     5
    Prepared statement...........................................     7
Dr. Walter Copan, Under Secretary of Commerce for Standards and 
  Technology and Director, National Institute of Standards and 
  Technology, United States Department of Commerce...............    12
    Prepared statement...........................................    14

                                Appendix

Response to written questions submitted to Hon. France Cordova 
  by:
    Hon. John Thune..............................................    45
    Hon. Roger Wicker............................................    46
    Hon. Bill Nelson.............................................    46
    Hon. Catherine Cortez Masto..................................    48
    Hon. Maria Cantwell..........................................    48
    Hon. Amy Klobuchar...........................................    50
    Hon. Richard Blumenthal......................................    50
    Hon. Tom Udall...............................................    51
    Hon. Maggie Hassan...........................................    57
Response to written questions submitted to Dr. Walter Copan by:
    Hon. Bill Nelson.............................................    57
    Hon. Amy Klobuchar...........................................    58
    Hon. Richard Blumenthal......................................    59
    Hon. Tom Udall...............................................    60
    Hon. Catherine Cortez Masto..................................    60

 
    ONE YEAR LATER: THE AMERICAN INNOVATION AND COMPETITIVENESS ACT

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:38 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senators Thune, Fischer, Gardner [presiding], 
Nelson, Cantwell, Klobuchar, Blumenthal, Markey, Peters, 
Hassan, and Cortez Masto.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Well, good afternoon, and thank you, 
everyone, for participating in this hearing today. Thank you to 
our witnesses. And, Dr. Cordova and Dr. Copan, thank you so 
much, both of you, for being here.
    I would also like to extend a special thank-you to Chairman 
Thune for allowing me to chair this hearing, as well as Ranking 
Member Nelson and Senator Peters for your partnership, your 
incredible work that we did on the American Innovation and 
Competitiveness Act, or I have an acronym here, AICA. I guess 
nobody uses that one, right?
    [Laughter.]
    Senator Gardner. How about America COMPETES last Congress?
    It's an honor to represent a state like Colorado, where we 
have so many incredible Federal labs, including facilities 
operated by NSF and NIST. Whether in car, in rail, or any of 
the other nearly 30 Federal labs, Colorado is lucky to house 
our Nation's foremost thinkers in the research and development 
space.
    This hearing marks just over one year since President Obama 
signed the American Innovation and Competitiveness Act into 
law. Senator Peters and I worked closely with Chairman Thune, 
Ranking Member Nelson, and other members of this Committee over 
the course of about 18 months to assemble a bill that built on 
the successes of the America COMPETES legislation passed in 
2007 and in 2010. Our goals revolved around three principal 
components: maximizing basic research, improving STEM 
education, and encouraging greater commercialization and 
technology transfer opportunities. We developed our legislation 
through a series of roundtable discussions, dozens of 
stakeholder meetings, a Commerce Committee hearing and markup, 
and a thorough review of countless comments, interested 
parties, and agencies alike submitted for consideration.
    In the end, we were able to pass the first major Commerce 
Committee-led reauthorization of the National Science 
Foundation and National Institute of Standards and Technology 
in 6 years. Former Vice-Chair of the National Science Board, 
Dr. Kelvin Droegemeier, supported this process and thanked us 
for helping to, quote, make science bipartisan again.
    Despite all the successes we were able to achieve, there is 
still much work to be done. While the United States remains the 
global leader in research and development investments at 
approximately 26 percent of the global total according to 
recent National Science Board publications, China is quickly 
closing the gap and is now spending about 21 percent of the 
global R&D total. And the recently published ITIF study shows 
that the U.S. is falling out of the top 10 global innovators 
for the first time in history.
    While this isn't a hearing on funding, I would like to 
reiterate my strong support for robust funding increases in 
both the National Science Foundation and the National Institute 
of Standards and Technology. Unless we dedicate more support to 
our Nation's research and development enterprise, we will lose 
out to competitors like China, who are quickly working to 
displace the United States as the world's greatest innovator.
    But we also have to ensure our research agencies are 
functioning at all levels and are able to continue to produce 
the best possible outcomes for our country. And so now that 
more than a year has passed since the Act's passage, it 
presents a great opportunity to hear about the progress of 
AICA--I'm just going to keep saying that, just get it out----
    [Laughter.]
    Senator Gardner.--implementation from the well-qualified 
leaders, both at NSF and NIST in their first appearances before 
the Senate Commerce Committee since taking the helms at their 
agencies.
    With that, it's my pleasure to first introduce Dr. Cordova 
and Dr. Copan, but before we do the formal introductions, I 
want to turn it over to Ranking Member Bill Nelson for his 
comments, and then some comments from Senator Peters.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, as you know, I approach my 
service in the Senate in a bipartisan way. You and I 
specifically have worked together with regard to the DACA kids 
and I want you to know that my comments are not partisan, they 
are an observation of some of the things that this Senator 
thinks are alarming with regard to science from the new 
administration over the past year. What I am saying is built on 
a lifetime of having an appreciation for science, having 
participated in one of the major science programs of the U.S. 
Government, and wanting to continually support the advancement 
of science as a major contributor to the quality of life of us, 
as individuals, as well as a nation.
    The public interest, public health and national security 
are going to depend on advancements in science. It is the fuel 
for innovation and the U.S. has led the world for a century in 
the development of new technologies and scientific achievement. 
The examples are legion. The Russians thought they were going 
to get to the Moon first. They shot the pants off us by putting 
up the first satellite. They shot the pants off us by putting 
up Gagarin. Then one orbit and then they ticked off three 
orbits before we could ever even get out of suborbit. I could 
go on and on and on from satellite communications to cutting-
edge fields like gene editing. Look what Dr. Francis Collins 
did at NIH in harnessing understanding the whole genome code.
    The advancement of science has depended on a healthy 
investment in research by the Federal Government. But I think 
what we're doing is losing ground to overseas competition. The 
National Science Board just released their report on the state 
of the U.S. science enterprise and their findings are chilling. 
China is now the second largest investor in R&D, a key driver 
of global competitiveness. And China's R&D investment continues 
to grow at a much higher pace than other nations. At this rate, 
China may soon eclipse the U.S., and we will lose the 
competitive advantage that has made us the most powerful 
economy in the world. These findings echo what we've heard time 
and again from the National Academies of Science as well as 
industry leaders like a former Coloradan, Norm Augustine, who 
first sounded the alarm 10 years ago.
    And so what we see in the proposed 2018 budget is slashing 
National Science Foundation spending by 11 percent, slashing 
the very agency that you just gave appropriate accolades to, 
NIST, by 23 percent. By contrast, the version of American 
Innovation and Competitiveness Act, that this Committee 
reported unanimously recommended a 4 percent increase for those 
agencies.
    Now, part of the problem is that there are still vacancies 
in the administration--science advisor is one. That means when 
decisions like budget or leaving the Paris climate accords are 
under consideration, there is no science voice in the room.
    Just as troubling are the many reports of interference in 
science. Nearly a year ago, we introduced legislation to ensure 
that science was protected from political interference. And 
yet, what do we see? Listen to what Columbia Law School has 
documented, over 100 cases of censorship and other meddling in 
science over the last year. At EPA, a political appointee is 
now reviewing grant applications instead of a career Federal 
employee.
    Some scientists have been told that they cannot talk about 
their research and others have been moved out of science jobs. 
Given the stakes, we better be paying attention to this. Now, 
luckily, at NSF and NIST, we have qualified leadership.
    Dr. Cordova and Dr. Copan, you are on the front lines of 
protecting scientists and their research from politics. I hope 
you remain strong. The bottom line is science should be a 
nonpartisan issue. That's what I say about NASA all the time. 
It should be not partisan or even bipartisan, it ought to be 
nonpartisan. So hopefully you all can shed some light on this.
    And, Senator Gardner, I want to recognize your leadership 
as well as Chairman Thune's and Senator Peters' in passing into 
law the American Innovation and Competitiveness Act just one 
year ago. I was proud of you, I was proud to cosponsor that 
legislation, and that was a truly bipartisan consensus-building 
effort.
    Thank you.
    Senator Gardner. Thank you, Senator Nelson.
    And to Senator Peters we turn next. But again my 
appreciation for your work on this legislation.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Chairman Gardner. And it 
was wonderful working with you on this legislation. And I echo 
Senator Nelson's comments. It truly was a bipartisan process. 
You mentioned in your comments the roundtables that we held. 
Those were some of the most productive roundtables that I've 
ever attended. As a Member of the Senate, we got very frank 
advice from all of the stakeholders involved in the scientific 
enterprise, from the business community to academics to 
innovators, and all of that went into this legislation, and 
certainly Senator Nelson and Senator Thune were a big part of 
making this legislation a success.
    But it is only a success if it actually gets implemented 
properly, and that's why both Dr. Cordova and Dr. Copan, you're 
here. Thank you for your leadership. Thank you for taking up 
these issues and working on making sure that our bill, which 
was designed to promote Federal science and research, to 
strengthen innovation, advance manufacturing, also concerned 
about skilled workforce to make sure STEM education, or STEAM 
education, is a priority going forward.
    But I want to echo what my colleagues have said, that now 
is really the time, in my mind, to double down on these policy 
goals and to make sure that they're actually met. I believe 
that we're living in perhaps one of the most fascinating times 
in human history when it comes to the breakthroughs that we're 
likely to see in scientific and engineering breakthroughs, but 
we're also facing significant competition from folks all around 
the world, and we need to step up our game and continue to do 
what we do so well. And a lot of that is going to rely on you, 
and it's on your shoulders and all of the colleagues you work 
with in the scientific community generally.
    So I look forward to having a very close relationship with 
both of you. Thank you for your commitment to this, and we hope 
that this Committee will be, continue to be, a beacon of 
bipartisanship in the area of scientific endeavor.
    Thank you.
    Senator Gardner. Thank you, Senator Peters. And with that, 
it's my great pleasure to introduce Dr. Cordova and Dr. Copan.
    Dr. Cordova is the Director of NSF, where she has served 
since March 2014. Prior to that role, she served as President 
of Purdue University and Chancellor of the University of 
California at Riverside as a Distinguished Professor of Physics 
and Astronomy.
    Dr. Cordova has also served as NASA's chief scientist in 
addition to numerous other prominent roles in science and 
academia.
    Dr. Copan has served--has been serving as NIST's Director 
since October 2017. Prior to his confirmation, Dr. Copan worked 
as the head of an engineering firm in the great State of 
Colorado, where it got a lot of snow last week, and the ski 
resorts are great, and served as a board member at Rocky 
Mountain Innovation Partners, where he advocated for Federal 
labs and the U.S. research and development enterprise.
    Dr. Copan has a long history in the technology 
commercialization space and has worked in several positions in 
the private sector.
    Dr. Cordova, if you would like to begin, and then we'll 
follow that up with Dr. Copan.

          STATEMENT OF DR. FRANCE CORDOVA, DIRECTOR, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Cordova. Thank you, Chairman Gardner, members of the 
Committee, Mr. Peters, Ms. Cantwell, Mr. Blumenthal, Ms. Cortez 
Masto.
    I'm pleased to be here today to celebrate the one-year 
anniversary of the American Innovation and Competitiveness Act. 
The Act represents a bipartisan endorsement of the mandate and 
mission of the National Science Foundation and the innovation, 
scientific discovery, economic impact, and transformative 
effects of the fundamental research we fund.
    Last month, I attended the 2017 Nobel Prize Award ceremony 
in Stockholm, Sweden. I was there to celebrate scientists in 
the fields of physics, economics, biology, and chemistry. All 
eight U.S. Nobelists were at some point supported by the 
National Science Foundation. In fact, NSF-funded researchers 
account for 231 Nobel Prizes dating back to 1955. Congress' 
support for basic research has been vital to their 
breakthroughs. In fact, in the LIGO observation that was given 
the Breakthrough of the Year award by Science Magazine and the 
Nobel Prize in Sweden, that research has been supported by 
Congress for 40 years. So congratulations to all of you.
    The AICA further serves to codify how NSF invests in 
science, innovation, and education. When the bill was signed 
into law, I directed an agency-wide approach to its 
implementation, which included establishing a coordinating 
committee to ensure an effective and efficient response. And I 
have with me in the audience Dr. Wanda Ward, who leads the 
Coordinating Commission.
    Wanda, if you would just lift your hand, please.
    I'm very proud of the work done to date, and I'll highlight 
just a few of the provisions of the law, how NSF is responding, 
and how they're positively impacting the Nation.
    First, on transparency and accountability. Importantly, the 
AICA affirms NSF's longstanding and world-renowned merit review 
process and addresses NSF's implementation of increased 
transparency and accountability.
    Recognizing the importance of the public's confidence in 
our work, the Act requires that the research goals of funded 
projects are clearly identified in a manner that can be easily 
understood by all audiences. Over the past year, I've met with 
leaders across NSF to reemphasize the need for clarity and 
strong justifications so that the public can understand what we 
are funding and, most importantly, why we're funding it. Each 
award now explains the project's significance and importance in 
clear language.
    On facilities, NSF's work would not be possible without the 
world-class facilities that are the tools of scientists around 
the country and the world.
    And, Senator Gardner, you mentioned a few of those in the 
Boulder area.
    To be at the forefront of science often requires unique 
instruments that take decades to design, build, and perfect. 
And an apt example is the one I mentioned, the LIGO 
Observatory, which in 2015 detected gravitational waves first 
predicted by Albert Einstein a century ago, and it opened a new 
and most exciting chapter in astrophysics.
    LIGO was first conceived in the 1970s. Construction began 
in the 1990s. After 40 years of significant investments in 
resources, it has become a revolutionary tool that will allow 
us to unlock mysteries of the universe.
    The AICA focuses on strengthening oversight and 
accountability for large facilities and support for what they 
call mid-scale projects. In response, NSF has maintained a 
Large Facilities Office, and I have appointed Dr. James 
Ulvestad, also sitting with me in the audience--Jim, raise your 
hand, please--as the agency's first Chief Officer for Research 
Facilities. This position sits in the Office of the Director 
and reports directly to me. I'm confident these steps and 
others we've taken, such as requiring independent cost 
estimates, will lead to improved outcomes.
    NSF is also evaluating the existing and future needs for 
mid-scale projects as defined by the AICA. We've issued a 
Request for Information to assess the demand for projects that 
could cost between $20 and $100 million. We received nearly 200 
responses, totaling a demand of about $10 billion for such 
projects. This is an area that we don't even fund right now, a 
$10 billion demand out there for first-class facilities in this 
cost range. NSF will now use this information to develop 
strategies for supporting these efforts.
    On STEM education and I-Corps, Title III of the Act 
highlights some areas of STEM education that have been key 
investments for NSF for many years and where we're seeing 
positive impacts. The law also demonstrates a commitment to 
drawing in more people who are talented into STEM fields by 
inspiring them early on, just as I was inspired, just as you 
were inspired, with excellent learning opportunities, including 
engagement in computer science.
    NSF, in collaboration with other agencies, is standing up a 
STEM Education Advisory Council, as required by Section 303. We 
solicited nominations, and the response has been most 
impressive. We have received over 400 discrete individual 
nominations, including many with support from Members of 
Congress. We're working toward having the appointments made in 
the next month or two.
    And, finally, I would like to highlight the Innovation 
Corps, or I-Corps, program. Since it was established in 2011, 
NSF has enabled the formation of over 450 companies through 
this program. They've collectively raised over $250 million in 
seed capital. The I-Corps program is helping to focus efforts 
and ideas that are commercially viable, thus, avoiding 
expenditures on those that are not. This efficiency, in 
addition to the entrepreneurial skills that I-Corps teaches, 
has made it a highly sought program. NSF has MOUs with nine 
other Federal agencies now, we've inspired their own I-Corps 
programs, and the State of Ohio.
    Mr. Chairman, these are but a few of the successes we're 
seeing in the implementation of I-Corps, so thank you for this 
marvelous Act.
    And now I turn to my colleague here. And thank you for the 
time. And I'm pleased to answer your questions.
    [The prepared statement of Dr. Cordova follows:]

          Prepared Statement of Dr. France Cordova, Director, 
                      National Science Foundation
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, it is a privilege to be here with you today to discuss the 
American Innovation and Competitiveness Act (AICA) following its one-
year anniversary. There is much to celebrate.
    Established by the National Science Foundation Act of 1950 (Public 
Law 81-507), the National Science Foundation (NSF) is an independent 
Federal agency whose mission is ``to promote the progress of science; 
to advance the national health, prosperity, and welfare; to secure the 
national defense; and for other purposes.'' NSF is unique in carrying 
out its mission by supporting fundamental research across all fields of 
science, technology, engineering and mathematics (STEM) and all levels 
of STEM education. Investing in STEM research and education is 
essential to America's prosperity, economic competitiveness, and 
quality of life. A vibrant scientific workforce and breakthrough 
discoveries enabled by NSF investments sustain, accelerate, and 
transform America's globally preeminent innovation ecosystem. NSF is a 
respected steward of taxpayer dollars, operating with integrity, 
openness, and transparency.
    In January 2017, the President signed into law the American 
Innovation and Competitiveness Act (Public Law 114-389), a bipartisan 
effort, led by this Committee, that reflect continued strong support 
for NSF's investments in basic and collaborative research that benefit 
our country and the world. This support allows NSF to continue to fund 
incredible discoveries and advances. In fact, NSF-funded researchers 
account for 231 Nobel prizes, including most recently in October of 
last year for physics (observation of gravitational waves), economics, 
biology and chemistry. In all, NSF's awards have led to 
transformational discoveries for the Nation--impacting Americans' 
everyday lives.
    The AICA also affirms NSF's long-standing and world-renowned merit 
review process and addresses NSF's implementation of issues of 
importance such as increased transparency and accountability, and 
management of multi-user facilities and mid-scale projects while 
maximizing research and education opportunities that help create the 
innovations that fuel our economy. The AICA promotes the Foundation's 
commitment to diversity in STEM fields, incentivizes NSF's programs 
that encourage private-sector involvement, and re-affirms NSF's 
continued commitment to entrepreneurship and commercialization.
    The AICA does not change the Foundation's portfolio of investments 
or the way we do business--in research, education, infrastructure, and 
administration--rather, it enhances and strengthens it, and serves to 
codify how NSF invests in science, innovation, and education.
    The AICA requirements are well aligned with NSF's mission. They 
vary considerably, however, in scope, complexity, and stage of 
development/completion. Thus, we take an intentional and strategic 
approach in responding to and complying with each requirement.
Oversight and Implementation of NSF's Response to the AICA
    NSF has taken an agency-wide approach in the implementation of AICA 
requirements. In May 2017, I established the AICA Coordinating 
Committee to ensure an effective and efficient agency response to the 
AICA. The Coordinating Committee was charged to: coordinate and oversee 
the implementation of NSF's response to the AICA; produce an agency 
wide action plan to identify AICA sections requiring policy development 
or executive management decisions; and develop a central repository of 
AICA-related tasks, deliverables, and documentation.
    I would now like to highlight some of the major provisions of the 
bill of special interest to the Committee, and how NSF is responding.
Title I--Maximizing Basic Research
Sec. 102 Transparency and Accountability
    This section requires NSF to issue and periodically update policy 
guidance on the importance of transparency and accountability to the 
outcomes made through the merit review process. The AICA requires that 
each public notice of a Foundation-funded research project justify the 
expenditure of Federal funds by describing how the project reflects the 
statutory mission of the Foundation and how it addresses the 
Foundation's intellectual merit and broader impacts criteria. Sec. 102 
also requires that the research goals of the project are clearly 
identified in a manner that can be easily understood by both technical 
and non-technical audiences.
    NSF consistently makes awards that meet the Intellectual Merit and 
Broader Impacts criteria and contribute to the NSF mission. Over the 
past year, I have met with leaders at the directorate level and at the 
division level to re-emphasize the need for clarity and justification 
in our award abstracts so that the public can understand what we are 
funding and why we are funding it.
    To become more transparent and explicit about this process, each 
award abstract now includes a nontechnical description of the project, 
which explains the project's significance and importance in lay 
language, as well as a technical description. In addition, NSF 
continues to enhance its staff training on the writing of titles and 
abstracts to improve the clarity of the award abstracts.
    Finally, NSF is updating the Proposal and Award Manual, so that the 
final paragraph of all award abstracts will include the following 
common statement: ``This award reflects NSF's statutory mission and has 
been deemed worthy of support through evaluation using the Foundation's 
intellectual merit and broader impacts review criteria.'' This policy 
adds a direct restatement of the AICA language to each abstract. By 
adding this statement, NSF affirms to all readers that every award made 
is aligned with our mission and is made according to our merit review 
process.
Sec. 109 Midscale Project Investments
    This section established a definition for mid-scale projects, and 
directs NSF to evaluate existing and future needs for mid-scale 
funding. The definition of mid-scale contained in this provision aligns 
with NSF's current internal definition for mid-scale programs.
    Instrumentation and equipment up to $4 million has been routinely 
funded through the Major Research Instrumentation (MRI) program, while 
large-scale research infrastructure projects have been successfully 
funded through NSF's Major Research Equipment and Facilities 
Construction (MREFC) Account. The adjustment in November 2016 to lower 
the MREFC threshold to $70 million was an initial step to support 
potential priorities in mid-scale science and infrastructure.
    On October 6, 2017, NSF issued a Dear Colleague Letter: Request for 
Information on Mid-Scale Research Infrastructure (NSF 18-013) to assess 
the needs for mid-scale research infrastructure with an anticipated NSF 
contribution of between $20 million and $100 million towards 
construction and/or acquisition. This range is of primary interest to 
NSF as it will help us to identify types of projects that remain 
difficult to address within program budgets due to the comparatively 
large investment needed in a relatively short period of time.
    NSF received 191 responses to the Request for Information, is 
currently analyzing the input, and plans to summarize the high-level 
insights drawn from this analysis for the science community and 
internal NSF use to develop possible strategies for supporting mid-
scale research infrastructure.
Sec. 110 Oversight of NSF Major Multi-User Research Facility Projects
    Sec. 110 strengthens oversight and accountability over NSF's large-
scale research facility projects funded by the major research equipment 
and facilities construction account in order to maximize research 
investment. In response, NSF has made revisions to the Large Facilities 
Manual, the Standard Operating Guidance, and the Process Narrative for 
A-123 Internal Controls Compliance in order to clarify the roles and 
responsibilities of all organizations, including policies and 
procedures for planning, management, and oversight of major multi-user 
research facility projects, at each phase of the lifecycle. NSF has 
maintained a Large Facilities Office to support the research 
directorates and, on December 12, 2017, NSF announced that Dr. James 
Ulvestad will serve as the agency's first Chief Officer for Research 
Facilities. This position sits in the Office of the Director and 
reports directly to me. Dr. Ulvestad will have full lifecycle oversight 
responsibility for NSF major research facilities. He has initiated an 
NSF Facilities Governance Board for strategic issues, as well as a 
group of Accountable Program Officials from the relevant research 
directorates to provide uniform information for the full lifecycle 
oversight.
    In response to the direction of the AICA, NSF has revised the Large 
Facilities Manual and Standard Operating Guidance to require external 
analysis of the proposed construction budget for each major multi-user 
facility project in accordance with the Government Accountability 
Office Cost Estimating and Assessment Guide. An independent cost 
estimate is now required for every proposed construction project, and 
an independent cost analysis of operational proposals is required for 
each major multi-user research facility project. NSF has also updated 
its policy guidance to require a risk assessment to inform its use of 
business system reviews, incurred cost audits, and other oversight 
tools.
    In addition, NSF has strengthened internal controls to improve 
oversight of contingency, retained control over funds budgeted for 
contingency, tracked contingency use, and ensured the amounts allocated 
to the project performance baseline are reasonable and allowable. The 
updated Large Facilities Manual and recently issued Standard Operating 
Guidance also establish guidelines for awardees regarding inappropriate 
expenditures associated with all fee types used in cooperative 
agreements.
    Finally, a notification letter was provided to the Committee 
earlier this month on the status of NSF's implementation of the 
recommendations made by an expert panel of the National Academy of 
Public Administration in the December 2015 report, National Science 
Foundation: Use of Cooperative Agreements to Support Large Scale 
Investment in Research \1\. In summary, NSF has addressed all the NAPA 
recommendations and, under the leadership of the new Chief Officer for 
Research Facilities, will finalize the details of implementation over 
the coming year. Also, I am very proud to say that in 2017, for the 
first time in five years, the OIG's auditor closed the Agency's 
Significant Deficiency in the Financial Statement Audit Report for 
NSF's oversight of large facility cooperative agreements.
---------------------------------------------------------------------------
    \1\ Available at http://www.napawash.org/2015/1785-national-
science-foundation-use-of-cooperative-agreements-to-support-large-
investments-in-research.html.
---------------------------------------------------------------------------
Sec. 112. Management of the U.S. Antarctic Program
    Sec. 112 requires the Director to continue to review NSF's efforts 
to sustain and strengthen scientific efforts in the face of logistical 
challenges for the U.S. Antarctic Program (USAP).
    The Blue Ribbon Panel Report (BRP), More and Better Science in 
Antarctica through Increased Logistical Effectiveness, released on July 
23, 2012, outlined eleven broad areas of concern and eighty-four 
implementing recommendations to address those concerns. Upon receipt of 
the report, a ``Tiger Team'' of senior NSF leaders was established that 
developed a point-by-point response to the BRP recommendations. The 
National Science Board (NSB) reviewed and strongly endorsed these 
responses at their December 2012 and February 2013 meetings. 
Substantial progress was made in implementing many of the 
recommendations when NSF's summary response was formally released on 
March 19, 2013.
    NSF has made steady progress on the BRP Report recommendations. The 
responses have addressed safety concerns, change of contractor from 
Lockheed Martin Polar Services to Leidos, and new management of IT 
systems, among other things.
    The Antarctic Infrastructure Modernization for Science (AIMS) 
project is being undertaken to address most of the remaining concerns. 
AIMS is now in the final design phase to prepare for the construction 
phase. The AIMS program will consolidate the footprint and core 
facilities at McMurdo station toward significantly enhanced efficiency 
and cost-effectiveness of science support. AIMS will provide 
flexibility and resilience to sustain world-class science, and will 
result in a number of efficiencies including a reduction in fuel 
consumption and vehicle requirements, as well as modernized efficient 
buildings, and enhanced safety and improved operational and energy 
efficiency. NSF is committed to keeping the United States at the 
forefront of science and discovery in Antarctica and the 
recapitalization of the Antarctic infrastructure in response to the BRP 
is critical to doing so.
    Approximately 13 USAP-related findings yielded recommendations that 
appeared in the Office of Inspector General's (OIG's) annual Federal 
Information Security Management Act (FISMA) reports in the last four 
years (FY 2013 thru FY 2016).\2\ In view of NSF's responsive actions 
for approximately nine of the findings, the NSF OIG has closed the 
related recommendations. As part of the FY17 FISMA audit currently 
underway, the NSF OIG is evaluating NSF's responsive actions to the 
remaining four findings.
---------------------------------------------------------------------------
    \2\ Please note that a finding that was repeated, in whole or in 
part, during FY13-16, is counted as one finding.
---------------------------------------------------------------------------
Title III--Science, Technology, Engineering and Math (STEM) Education
    The AICA highlights some areas of STEM Education that have been key 
investments for NSF for many years and where we are seeing positive 
impacts. Several of the provisions signal Congress's support for 
improving K-12 STEM education, and the understanding of NSF's key role 
by drawing on the integration of research and education that is at the 
core of NSF's uniqueness.
    The AICA demonstrates a commitment to drawing more people who are 
talented into STEM fields by inspiring them early on with excellent 
learning opportunities, including engagement in computer science. The 
AICA also focuses on government-wide coordination of STEM education 
(and the resulting efficiencies). NSF has played a key role in working 
toward this through the National Science and Technology Council (NSTC) 
efforts in collaboration with other agencies.
    At NSF, because our education activities are integrated with 
science and engineering, research and innovation, we recognize that 
combining the best that we know from research about learning and 
cognition with exciting opportunities to learn STEM is a winning 
combination for helping to effectively inspire the next generation.
    I would now like to highlight some of the major provisions of Title 
III, and how NSF is responding.
Sec. 303 STEM Education Advisory Panel
    This section requires NSF, the Department of Education (ED), the 
National Aeronautics and Space Administration (NASA), and the National 
Oceanic and Atmospheric Administration (NOAA) to jointly establish an 
advisory group made up of non-federal STEM education stakeholders. The 
Panel is tasked with advising the NSTC Committee on Science, 
Technology, Engineering, and Math Education (CoSTEM) and recommending 
improvements to Federal STEM Education programs.
    The STEM Education Advisory Panel (the Panel) was established on 
October 18, 2017, under the authority of the AICA and the Federal 
Advisory Committee Act of 1972. The Panel will provide advice and 
recommendations to CoSTEM, assess CoSTEM's progress in carrying out 
responsibilities related to the America COMPETES Reauthorization Act, 
and help identify need or opportunity to update the Federal STEM 
Education 5-Year Strategic Plan. NSF, ED, NASA, and NOAA have requested 
recommendations for membership, and have received over 500 individual 
recommendations from Members of Congress, as well as the STEM education 
community. Going forward, the Panel will continue to accept 
recommendations year-round.
    The heads of the Federal science agencies will work to appoint an 
energized and engaged group of individuals to an initial term on the 
STEM Education Advisory Panel in early 2018. The STEM Education 
Advisory Panel membership will consist of no less than 11 individuals. 
Members may serve on the panel for up to a three-year term. Advisory 
panel meetings will be held twice a year.
Sec. 305 Programs to Expand STEM Opportunities
    Section 305 of the AICA reaffirms that NSF should continue to 
support programs designed to improve the participation of 
underrepresented groups in STEM. Such programs could include grants for 
the establishment of a Center of Excellence to increase participation 
of underrepresented populations in STEM fields, the purpose of which 
would be to build on the success of the Inclusion across the Nation of 
Communities of Learners of Underrepresented Discoverers in Engineering 
and Science (NSF INCLUDES) program.
    NSF INCLUDES is a comprehensive effort to enhance U.S. leadership 
in science and engineering discovery and innovation by proactively 
seeking and effectively developing STEM talent from all sectors and 
groups in our society. A key objective of the NSF INCLUDES initiative 
is to engage current NSF awardees working on broadening participation 
as well as the broader STEM community in the creation and development 
of the NSF INCLUDES National Network.
    The initiative is currently developing a National Network composed 
of NSF INCLUDES Design and Development Launch Pilots, NSF INCLUDES 
Alliances (NSF 18-529), an NSF INCLUDES Coordination Hub (NSF 17-591), 
NSF-funded broadening participation projects, other relevant NSF-funded 
projects, scholars engaged in broadening participation research, and 
other organizations that support the development of talent from all 
sectors of society to build an inclusive STEM workforce.
    By building the infrastructure for partnerships, communication and 
collaboration, NSF aims to advance and scale up what works in 
broadening participation programs to reach underserved populations 
nationwide.
Sec. 310 Computer Science Education Research
    This section requires NSF to make grants to support computer 
science (CS) education and computational thinking and report to 
Congress in the annual budget submission on the success of the program.
    Since 2008, NSF has funded projects to build an evidence-based 
foundation for K-12 CS education and an ecosystem of curricula, course 
materials, assessments, scalable models of professional development and 
online support networks and resources for teachers. CS courses enable 
students to develop skills and competencies in problem-solving, 
critical thinking, creativity and collaboration that will help them 
excel in today's increasingly digital and computational world.
    NSF is strongly committed to building the knowledge base--creating 
research and development--for computer science education, and 
broadening participation among underrepresented students for years to 
come. NSF recently released a solicitation entitled Computer Science 
for All: Researcher Practitioner Partnerships. This program aims to 
provide all U.S. students the opportunity to participate in computer 
science and computational thinking education in their schools at the K-
12 levels. With this solicitation, NSF focuses on researcher-
practitioner partnerships that foster the research and development 
needed to bring computer science and computational thinking to all 
schools.
    Specifically, this solicitation aims to provide high school 
teachers with the preparation, professional development, and ongoing 
support that they need to teach rigorous computer science courses, and 
K-8 teachers with the instructional materials and preparation they need 
to integrate computer science and computational thinking into their 
teaching.
Sec. 311 Informal STEM Education
    Section 311 of the AICA amends the STEM Education Act of 2015 to 
develop ``a national partnership of institutions involved in informal 
STEM learning.'' The section also encourages, ``fostering and 
implementing on-going partnerships among institutions involved in 
informal STEM learning, institutions of higher education, and education 
research centers; and developing, adapting, and making available 
informal STEM education activities and educational materials for broad 
implementation.''
    Informal STEM education programs are important for engaging the 
public and promoting understanding of STEM. Partnerships of many kinds 
are invaluable in this effort. NSF's primary program to support 
informal STEM learning is the Advancing Informal STEM Learning (AISL) 
program in the Directorate for Education and Human Resources.
    One mechanism for partnership with other directorates is the 
opportunity for co-funding individual projects. At present, more than 
50 NSF-projects are co-funded between AISL and a program in another 
directorate. In addition, the AISL program itself encourages 
collaboration across informal STEM institutions. Two tracks of the 
program are specifically dedicated to partnerships, and a national 
center was recently awarded to a collaboration among several academic 
and non-governmental organizations. The purpose of this center is ``to 
measurably advance R&D activities and findings that have the potential 
to improve innovation, knowledge building and networking, and the 
fostering of a more cohesive field of informal STEM learning.''
    Looking forward, NSF will continue to encourage partnerships among 
diverse entities to further informal STEM education across the Nation.
Title VI--Innovation and Technology Transfer
Sec. 601 Innovation Corps
    The AICA encourages the development and expansion of NSF's 
Innovation Corps (I-Corps) and other training programs that focus on 
professional development, including education in entrepreneurship and 
commercialization. It also encourages competitive grants, in 
consultation with the Small Business Innovation Research Program, to 
help support prototype or proof-of-concept development and activities 
necessary to build local, regional, and national infrastructure for 
science and engineering entrepreneurship.
    The NSF I-Corps program started in 2011 through the convergence of 
several trends in the economy, in the understanding of startup 
formation, and through NSF's experience with seeding startups through 
the Small Business Innovation Research and Small Business Technology 
Transfer (SBIR/STTR) programs. These trends strongly resonated with 
NSF's experience. Our data showed that of the new startups in the SBIR/
STTR programs, many of which were academic spinouts developing cutting 
edge and state of the art deep technologies, the greatest challenge to 
success was more typically market failure, not technical failure that 
they had to overcome. We wanted to work with these trends to try 
something new that might better support translating cutting-edge 
innovations from the lab to the market.
    NSF has enabled over 450 companies to develop through I-Corps 
teams. These companies have collectively raised over $250 million in 
seed capital. Traditionally, these types of companies take 5-10 years 
to fully develop into commercial successes. Early fundraising and 
improved success rates in SBIR/STTR programs are a testament to I-
Corps' value in improving the preparation of early stage startups. I-
Corps programs have been adopted and adapted in partnerships with a 
growing number of Federal agencies, including the National Institutes 
of Health (NIH), Department of Energy (DOE), Department of Defense 
(DOD), National Security Agency (NSA), United States Department of 
Agriculture (USDA), Department of Homeland Security (DHS), National 
Aeronautics and Space Administration (NASA), and the Small Business 
Administration (SBA). The I-Corps model has also been adopted by the 
state of Ohio.
    NSF is currently working to scale the I-Corps program in line with 
the guidance of the AICA. NSF has established an I-Corps Working Group 
that is focused on determining how to best meet these requirements. The 
Working Group has also developed a draft of metrics to evaluate program 
effectiveness.
    In addition, to address Section 601 of the AICA, NSF currently has 
two pilot programs underway. The first pilot is focused on the 
Expansion of I-Corps, and the second pilot is focused on developing 
Follow-On Grants. NSF is funding eight I-Corps sites to increase 
participation and promote inclusion of underrepresented populations in 
entrepreneurship. These sites will pilot novel approaches and 
partnerships to engage differently-abled individuals, first-generation 
college students, racial and ethnic minorities and women, as well as 
Minority-Serving Institutions.
    In collaboration with the NSF SBIR/STTR program, NSF launched the 
I-Corps Phase 0 pilot. This pilot supports non-academic teams of very 
early startups or pre-startups that are developing game-changing 
technologies. The Phase 0 Teams will receive national I-Corps training 
and participate in a follow-on curriculum called ``I-Corps Go'' that 
addresses some of the more common issues in startup formation, 
including incorporation, negotiation of intellectual property, and 
fundraising.
    The I-Corps program is an integral part of the NSF strategy to 
stimulate innovation and address societal needs through the 
commercialization of the results of fundamental research. NSF will 
continue to work with the Committee to expand the program.
    While this is not an exhaustive list of all the provisions of the 
AICA that impact NSF, please rest assured NSF has assigned action to 
each and every section through the AICA Coordinating Committee. We 
would be happy to provide the Committee any additional updates.
Conclusion
    Mr. Chairman, I can say with certainty that the results of frontier 
research funded by NSF have a long record of improving lives and 
meeting national needs. With the support of this Committee, Congress, 
and the guidance provided by the AICA, NSF will continue to invest in 
the fundamental research and the talented people who make the 
discoveries that transform our future. These discoveries are a major 
driver of the U.S. economy, enhance our Nation's security, and give the 
country the competitive edge needed to remain a global leader.
    Thank you for the opportunity to testify today and for your 
continued support of NSF. I will be pleased to answer any questions.

    Senator Gardner. Thank you, Dr. Cordova.
    And, Dr. Copan.

       STATEMENT OF DR. WALTER COPAN, UNDER SECRETARY OF

           COMMERCE FOR STANDARDS AND TECHNOLOGY AND

         DIRECTOR, NATIONAL INSTITUTE OF STANDARDS AND

        TECHNOLOGY, UNITED STATES DEPARTMENT OF COMMERCE

    Dr. Copan. Thank you, Senator Gardner, Ranking Member 
Nelson, and members of the Committee. I'm Dr. Walter Copan, 
Under Secretary of Commerce for Standards and Technology, and 
Director of the National Institute of Standards and Technology, 
NIST.
    Thank you for the opportunity to appear before you today to 
discuss the implementation of the American Innovation and 
Competitiveness Act, or AICA. I would like to thank the 
Committee for your work in the passage of this bill, which has 
provided new tools and authorities that are helping NIST to 
deliver on its mission.
    As a nonregulatory agency, NIST has an outsized, positive 
impact on the U.S. economy, our quality of life, and national 
security. Supporting NIST's work in measurement science 
standards and technology, the AICA authorized new programs, 
recommended changes to improve our processes, and supported our 
world-class personnel at NIST.
    NIST has responded to this bill, and we have seen the 
benefits to our laboratory programs and operations, which 
include codifying NIST's continuing efforts in cybersecurity, 
addressing the development of a comprehensive strategic plan 
for our laboratory programs, carrying out research leading to 
the development of standards for voting security, expanding 
interactions with academia, industry, and international 
researchers, and, further, increasing NIST's focus to enable 
commercial and industrial applications.
    Additionally, the AICA reduced the minimum required non-
Federal cost share for cooperative agreement awards under the 
Hollings Manufacturing Extension Partnership, the MEP, and 
implemented new accountability and oversight provisions for 
that program. These changes have increased the effectiveness of 
MEP. NIST has also significantly strengthened its site security 
as well as the culture of security awareness.
    The law acknowledges the importance of sharing research 
findings and fostering collaboration by facilitating the 
process for NIST employees to attend scientific conferences, 
workshops, and communicating. It also builds upon previous 
authority to conduct prize competitions, and broadens it to 
include crowdsourcing and collaborative citizen science, which 
serve to advance the NIST mission.
    My written testimony provides further details on how NIST 
has worked to implement the provisions of the law. NIST 
opportunities for impact are directly tied to the Institute's 
mission and historic role, and NIST's future must build on the 
solid foundation of technical expertise and stakeholder 
engagement.
    NIST's current priorities, including advanced 
manufacturing, technology transfer, cybersecurity, quantum 
technologies, and disaster resilience will remain national 
imperatives for the decades to come.
    To continue to be the bedrock of innovation in the U.S., 
NIST must grow new capabilities, and, as such, we are expanding 
our capabilities in the areas of the Internet of Things, 
Artificial Intelligence, and the Bioeconomy over the next 
decade. With emphasis on these emerging key areas coupled with 
continued dedication to areas of traditional expertise and 
contribution, NIST will ensure impact over the coming decades.
    While the NIST strategic priorities will endure, they will 
be influenced by new and rapidly evolving technologies. NIST is 
proud of the positive impact we have had and of the 
improvements we have been able to make with the AICA 
authorization.
    NIST maintains its longstanding commitment to advancing 
measurement science in order to further innovation and to 
increase the competitiveness of the U.S. industry. Our very 
broad technical portfolio positions the agency to contribute 
productively and rapidly to emerging national needs and 
international trade. With NIST's dedicated technical staff, our 
unique facilities, and our objective nonregulatory role, we are 
well positioned to continue to thrive on delivering on our 
important mission, to promote U.S. science, innovation, and 
industrial competitiveness.
    Thank you for this opportunity to testify on NIST's 
implementation of the AICA. And I'd be happy to answer any 
questions you may have.
    [The prepared statement of Dr. Copan follows:]

Prepared Statement of Dr. Walter Copan, Under Secretary of Commerce for 
     Standards and Technology and Director, National Institute of 
     Standards and Technology, United States Department of Commerce
Introduction
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, I am Dr. Walter Copan, Under Secretary of Commerce for 
Standards and Technology and Director of the Department of Commerce's 
(DOC) National Institute of Standards and Technology (NIST). Thank you 
for the opportunity to appear before you today to discuss the 
implementation of the American Innovation and Competitiveness Act 
(AICA) (P.L. 114-329).
    Before I begin, let me thank the Committee for your work in the 
passage of the AICA, which provided new tools and authorities that are 
helping NIST deliver on its mission.
NIST Mission
    NIST is the Nation's measurement science institute. As a non-
regulatory agency within DOC, NIST's mission is to promote U.S. 
innovation and industrial competitiveness by advancing measurement 
science, standards, and technology in ways that enhance economic 
security and improve our quality of life.
    Founded in 1901 as the National Bureau of Standards, today NIST 
develops and disseminates measurements and standards that enable 
comparison, ensure interoperability, and support commerce. NIST's role 
is unique: our Federal workforce of over 3,000 employees, over half of 
whom are Ph.D. scientists and engineers, work to create the measurement 
tools that enable innovation.
    NIST's cutting-edge work takes place at two main campuses, the 
headquarters in Gaithersburg, MD and a campus in Boulder, CO, as well 
as through NIST personnel in Charleston, SC, Kauai, HI, and Palo Alto, 
CA. NIST researchers also work in partnership with nine collaborative 
research institutes across the country to align the most advanced 
metrology with leading scientific research at U.S. universities and 
help accelerate the pace of innovation.
    The NIST mission has three key themes:

  <bullet> Measurement Science: Creating the experimental and 
        theoretical tools--methods, metrics, instruments, and data--
        that enable innovation.c

  <bullet> Standards: Disseminating measurement standards and providing 
        technical expertise to further the development of documentary 
        standards that enable comparison, ensure interoperability, and 
        support commerce.

  <bullet> Technology: Driving innovation through knowledge 
        dissemination and public-private partnerships that bridge the 
        gap between discovery and the marketplace.

    Through work in these areas, NIST has an outsized impact on the 
U.S. economy, quality of life, and national security.
AICA Passage
    To support NIST's work in measurement science, standards and 
technology, the ``American Innovation and Competitiveness Act'' (AICA) 
(P.L. 114-329)--the successor to the America COMPETES Act--became law 
on January 6, 2017 and updated the authorizing legislation for NIST.
    The new law authorizes new programs, recommends changes to improve 
processes, and supports personnel at NIST. Highlights of the bill 
related to our laboratory programs include:

  <bullet> Codifying NIST's continued efforts in cybersecurity;

  <bullet> Requiring the development of a comprehensive strategic plan 
        for laboratory programs;

  <bullet> Authorizing research leading to the development of standards 
        for voting security;

  <bullet> Supporting broader interactions with academia, international 
        researchers, and industry; and,

  <bullet> Directing NIST to expand its focus on enabling commercial 
        and industrial applications.

    The AICA implemented new accountability and oversight provisions 
for the Hollings Manufacturing Extension Partnership Program (MEP). 
Further, it authorizes the transfer of direct management of NIST law 
enforcement and site security through an assigned Director of Security 
for NIST who reports to the Department of Commerce Office of Security 
(DOC OSY). The bill acknowledges the importance of allowing employees 
to attend scientific conferences and workshops to share findings and 
foster collaboration. It also builds upon previous authority to conduct 
prize competitions and broadens it to include crowdsourcing and 
collaborative citizen science to advance our mission.
    My testimony will provide additional details on the provisions of 
the legislation and how NIST has worked to implement them.
Cybersecurity Research (Section 104)
Continuing efforts in cyber standards for critical infrastructure.
    Section 104 of the bill made a number of changes to the NIST 
Cybersecurity program. Under Section 104, NIST has continued its work 
on the Cybersecurity Framework, Next-Generation Internet of Things 
(IoT), Addressing Botnet Threats, and Securing Unclassified Government 
Information.

  <bullet> Cybersecurity Framework: The NIST Cybersecurity Framework 
        (Framework) serves as voluntary guidance for industry, based on 
        existing standards, guidelines and practices, for critical 
        infrastructure organizations to better manage and reduce 
        cybersecurity risk. In 2017 NIST published two public drafts, 
        requesting and addressing public comments, for version 1.1 of 
        the Framework. These updates provided new details on managing 
        cyber supply chain risks, clarified key terms, and introduced 
        measurement methods for cybersecurity. Executive Order 13800, 
        Strengthening the Cybersecurity of Federal Networks and 
        Critical Infrastructure, requires that all Federal Executive 
        Branch agencies use the NIST Framework to manage cybersecurity 
        risk. In 2018, NIST will continue to improve the clarity and 
        applicability of the Framework focusing on its usability and to 
        communicate the Framework in support of its effective 
        implementation.

  <bullet> Next-Generation Safeguards for Information Systems and the 
        Internet of Things: For the emerging area of Internet of 
        Things, NIST's Cybersecurity for IoT program supports the 
        development and application of standards, guidelines and 
        related tools to improve the cybersecurity of connected 
        devices--which is a network of connected objects that are able 
        to collect and exchange data using embedded sensors such as 
        thermostats, cars, lights, appliances--and the environments in 
        which they are deployed. NIST has issued a draft revision of 
        its widely used Special Publication Security and Privacy 
        Controls for Information Systems and Organizations representing 
        an ongoing effort to produce a unified information security 
        framework for the Federal Government. This latest draft 
        addresses ways various organizations can maintain security and 
        privacy in their interconnected systems. Next-generation 
        safeguards include advanced encryption, secure and reliable 
        connectivity, and cybersecurity for smart grid systems and 
        cyber physical systems. In 2018, NIST is working to broaden 
        strategic collaborations and partnerships with IoT industry 
        experts and its Federal Government partners to facilitate the 
        development and advancement of IoT interoperability standards, 
        security and best practices.

  <bullet> NIST initiative seeks industry solutions in support of the 
        Administration's Botnet initiative: In Executive Order 13800, 
        the Administration required the Departments of Commerce and 
        Homeland Security to promote stakeholder action against botnets 
        and other automated, distributed threats. NIST worked with NTIA 
        and DHS, in consultation with several other agencies and the 
        private sector, to publish a draft report earlier this month on 
        enhancing the resilience of the Internet against botnets. The 
        report contains draft goals and actions that would improve the 
        resilience of the ecosystem. The Department is collecting 
        stakeholder input on the draft report and will incorporate that 
        input into a final report to the President in May. NIST's 
        National Cybersecurity Center of Excellence (NCCoE) will also 
        develop a ``practice guide'' to help protect Internet of Things 
        devices from botnet threats that leverages industry solutions. 
        The NCCoE is soliciting ``products and technical expertise to 
        support and demonstrate security platforms'' for securing IoT 
        from botnet threats, as part of the ``Mitigating IoT-Based DDoS 
        Building Block'' practice guide.

  <bullet> Securing Unclassified Government Information: Another area 
        to highlight in our cybersecurity research work is the 
        publication of Protecting Controlled Unclassified Information 
        (CUI) in Nonfederal Systems and Organizations, which provides 
        Federal agencies with recommended requirements for protecting 
        the confidentiality of CUI that resides on nonfederal systems. 
        NIST has released for public comment the special publication 
        Assessing Security Requirements for Controlled Unclassified 
        Information, which is a guideline for any organization seeking 
        to comply with the CUI regulation governing the safe handling 
        of information that is important to the U.S. Government. CUI is 
        a diverse classification that includes information involving 
        privacy, proprietary business interests and law enforcement 
        investigations. The public comment period closed on January 15, 
        2018; NIST will now address public comments before publishing 
        an updated version later this year.
Development of quantum computing and cryptography standards.
    NIST has made additional advances in the development of quantum 
computing and cryptography standards.
    Quantum information science research at NIST explores ways to 
employ phenomena exclusive to the quantum world to measure, encode and 
process information for useful purposes, from powerful data encryption 
to computers that could solve problems intractable with classical 
computers. Some specific areas that are being addressed are:

  <bullet> Post-Quantum Cryptography Standardization: NIST has 
        initiated a process to solicit, evaluate, and standardize 
        quantum-resistant public-key cryptographic algorithms. NIST 
        solicited public comment on draft minimum acceptability 
        requirements, submission requirements, and evaluation criteria 
        for candidate algorithms.

  <bullet> Qubits: A team of scientists from the NIST and University of 
        Maryland with the Joint Quantum Institute (JQI) have created a 
        quantum simulator using 53 interacting atomic qubits to mimic 
        magnetic quantum matter. Prior to this breakthrough, 
        researchers had only created quantum simulators of 20 qubits or 
        less. The building of qubit simulators is a key step toward 
        building a full-fledged quantum computer.

  <bullet> Single Photon Detector: Individual photons of light now can 
        be detected far more efficiently using a device patented by a 
        team including NIST whose scientists have overcome longstanding 
        limitations with one of the most commonly used type of single-
        photon detectors. Their invention could allow higher rates of 
        transmission of encrypted electronic information and improved 
        detection of greenhouse gases in the atmosphere.

  <bullet> Chained Bell Test: NIST recently demonstrated a Chained Bell 
        Test experiment to probe a fundamental assumption of quantum 
        mechanics. Albert Einstein had described the quantum phenomenon 
        as ``spooky actions at a distance.'' The NIST method produced 
        statistically significant results, demonstrating the predicted 
        quantum behavior by using an ion trap setup to probe quantum 
        entanglement by manipulation of ion pairs.

  <bullet> Photon Measurement: Future communications networks that are 
        less vulnerable to hacking are closer to reality because of a 
        NIST invention that measures the properties of single-photon 
        sources with high accuracy. The NIST invention measures 
        detailed information in the spectral properties of photons 
        10,000 times better than current state-of-the-art devices.
Determine information security vulnerability, challenges and 
        deficiencies, and 
        evaluate effectiveness of implementation standards.
    Under this authority, critical continuing work for security 
includes:

  <bullet> Behavioral Cybersecurity: NIST will assemble a team with 
        experts in cybersecurity, computers science, networking, human 
        actors and cognitive psychology, and sociology to answer 
        questions such as: What technical information does the public 
        need and how can we make this information more understandable? 
        Why don't individuals practice safe computing? What societal 
        factors influence the adoption of safe computing practices?

  <bullet> National Vulnerability Database: The National Vulnerability 
        Database (NVD) is the U.S. Government repository of standards-
        based vulnerability management data represented using the 
        Security Content Automation Protocol. Over 56,000 entries in 
        the vulnerability database were either new or modified during 
        2017. In 2018, NIST will continue to research and develop new 
        methodologies to increase efficiencies in analyzing and 
        publishing vulnerability data, while simultaneously improving 
        data reliability.
Codifies research for standards on voting security.
    The final new authority under this section codifies the work NIST 
has been doing on cybersecurity of voting systems.
    Voting System Cyber Security Public Working Group: The NIST Voting 
System Cybersecurity Working Group is the Nation's forum for review and 
further development of guidance for voting system cybersecurity-related 
issues, including various aspects of security controls and auditing 
capabilities. The guidance will inform the development of requirements 
for the Election Assistance Commission (EAC) Voluntary Voting System 
Guidelines (VVSG).
    NIST conducted the research necessary to develop the Draft 
Voluntary Voting System Guidelines, version 2.0, progressed 
interoperability by advancing the Common Data Format (CDF) for election 
systems, and collaborated with interagency partners in providing 
additional election security guidance.
    NIST research considered significant advances in the technology 
used in U.S. voting systems, as well as the public's input for 
addressing the needs of all voters to participate in elections. For 
example, universal design, mobile devices, and assistive technology now 
provide much greater accessibility to voters with disabilities. Better 
quality assurance and configuration management methods, new programming 
languages, greater fault-tolerance and increased capacity in hardware 
components, as well as new approaches to data exchange, software 
assurance, and security have emerged in the last decade.
    This research in hardware and software, security, human factors and 
data exchange led to a draft set of VVSG Principles and Guidelines \1\ 
and five data formats that were discussed and revised through bi-weekly 
teleconferences with the technical Voting Public Working Groups on 
Cybersecurity (121 members), Usability and Accessibility (106 members), 
and Interoperability (158 members). In addition to the expert review by 
the 385 members of these working groups, the draft was adopted at the 
September 2017 Technical Guidelines Development Committee (TGDC) 
meeting, and is currently under review by the Election Assistance 
Commission (EAC) Standards Board and Board of Advisors.
---------------------------------------------------------------------------
    \1\ http://collaborate.nist.gov/voting/bin/view/Voting/
VVSGPrinciplesAndGuidelines
---------------------------------------------------------------------------
Lab Program Improvements (Section 107)
    NIST leadership has been working towards developing a long-range 
strategic plan for NIST's laboratory programs with the goal to identify 
high-level research priorities to best position NIST looking towards a 
10-year horizon. This process, which built on years of work developing 
short-term prioritized operational plans for each Lab and a year of 
engagement articulating NIST's values, sought to produce a long-range 
plan that allows NIST leadership to be proactive instead of reactive in 
shaping NIST's research environment to address the needs of U.S. 
commerce in an ever-changing landscape of both Federal funding and 
technical opportunities.
    In examining what new technical and organizational capabilities 
NIST will require in a decade, NIST's leadership considered what are 
likely to be the requirements of NIST's existing priority areas, such 
as manufacturing and cybersecurity. What systems will emerge that will 
require expanded cybersecurity and privacy capabilities? What 
technologies are likely to change the way cryptography works? What 
novel products will U.S. manufacturers make, and what new technologies 
must they use to be competitive? What technical breakthroughs will 
impact NIST's own business models, and how can NIST lead that change? 
These questions shaped NIST's identification of opportunities for this 
strategic vision.
    To lay the groundwork for the strategic plan, a scan of the 
technical landscape was completed, and numerous interviews with NIST 
senior leadership, former NIST directors, as well as former Visiting 
Committee on Advanced Technology members were conducted. The interviews 
explored major opportunities, risks, areas for investment/divestment, 
NIST culture, leadership, indicators of success, and advice for 
Commerce Secretary Ross. During a 2-day workshop held at the end of May 
2017, a five-person thought leader panel provided their perspectives on 
the future of technology. One theme that was clear is that science 
increasingly depends on systems thinking and learning, multimodal data, 
and multimodal measurements. The second key theme was that NIST has a 
place and a part in teaching people about measurement science and 
ensuring measurements are being conducted to get the best data out. 
During these early stages of discussion, three possible areas for 
growth were identified in vertical capabilities, meaning associated 
with specific disciplines: bioscience; quantum science; and IoT. In 
horizontal capabilities, meaning cross-cutting areas, potential areas 
for growth include data science and artificial intelligence and 
systems-level thinking and modeling.
    NIST's opportunities for impact are inescapably tied to the 
Institute's mission and historic role. NIST's future must build on a 
solid foundation of technical expertise and stakeholder engagement. 
Since its founding in 1901, NIST has been known as ``Industry's 
National Laboratory,'' dedicated to supporting U.S. competitiveness. To 
continue to be the bedrock of innovation in the U.S., NIST must grow 
new capabilities over the next decade. With investments in emerging key 
areas coupled with continued dedication to areas of traditional 
expertise and contribution, NIST will ensure impact in the coming 
decades.
    NIST's current priorities--including manufacturing, technology 
transfer, cybersecurity, quantum technologies, and disaster 
resilience--will continue to align with national imperatives for the 
decades to come. The manufacturing sector will continue to be a driving 
force of innovation and productivity for the U.S. economy. 
Transitioning technologies effectively from laboratory to market is the 
seed corn for our innovation economy as well as entrepreneurship. The 
need for strong and practical cybersecurity approaches are growing 
rapidly as digital systems integrate into more of our lives and 
commerce. The very real hazards of natural disasters must be addressed 
through effective standards and technologies, and America's built 
infrastructure and communities must be able to withstand and recover 
from those events. Quantum-based devices, communications and 
cryptography hold great promise for the U.S. and for the future of 
measurements and standards, and our Nation must be positioned to 
address market, technology and cyber threats from others in this 
domain. While the NIST strategic priorities will not change, they will 
be influenced by new and rapidly evolving technologies.
    To extend its reach and amplify its influence, NIST will work with 
stakeholders within the Institute, across government, in industry and 
academia on the opportunities with greatest impact potential for the 
Nation. These interdisciplinary areas--or themes--are at the forefront 
of science and technology, and will therefore require the collective 
talent and ingenuity of researchers and leaders across the NIST 
laboratories.
Theme 1: Provide a foundation of trust in new industries

  <bullet> Enabling the future bioeconomy. As proof-of-concept 
        laboratory work in engineering biology meets the market 
        realities of bringing lab science into commercial introduction, 
        there are questions about how to compare biological products, 
        measure whether desired outcomes are realized, and optimize 
        biological systems for desired behaviors. NIST will deliver 
        tools and standards to measure biological technologies, 
        outputs, and processes that will enhance economic sectors from 
        healthcare to manufacturing and beyond.

  <bullet> Unleashing the economic potential of IoT. Robust, secure, 
        and competitive technology advances in the Internet of Things 
        must be built on a solid foundation of measurement and 
        standards. NIST will develop new tools and approaches for IoT 
        systems security, establish technologies to relieve network 
        congestion and device interference, and facilitate greater 
        confidence in device interoperability.
Theme 2: Apply new technologies to revolutionize mission delivery

  <bullet> Enhancing mission-critical research through Artificial 
        Intelligence (AI) and data. NIST will develop resources and 
        expertise to apply AI, machine learning, and big data 
        techniques to measurement science, including curated datasets 
        to train and test AI systems, model AI behavior and compare AI 
        systems, as well as to apply AI to research efforts where big 
        data requires the application of advanced learning algorithms.

  <bullet> Revolutionizing commerce through quantum measurements. In 
        May, 2019, the International System of Units (SI) is slated to 
        be redefined with units based on fundamental constants of 
        nature, and NIST must lead in this transition to quantum 
        definitions. NIST will use its world-leading quantum science 
        expertise to develop physical reference standards and ``self-
        calibrating'' sensors that will enable a world where 
        measurement devices are ubiquitous, reliable, and affordable.
NIST Campus Security (Section 113)
    The legislation supports the Department's efforts to continue to 
improve overall security. Security and safety begins with the 
leadership of NIST, and I am ultimately responsible for the 
organization's security and safety culture and performance. The 
Department also continues to take steps to improve the physical 
security at NIST. NIST, working with the Department, is committed to 
improving the security culture at both NIST campuses. Let me highlight 
the steps we have taken to ensure successful implementation of the 
legislation's provisions.
    The AICA authorized in the Department of Commerce Office of 
Security (OSY) supervisory authority for law enforcement and site 
security at NIST. OSY manages and implements all security, emergency 
management, and threat investigations across the Department and its 
thirteen bureaus and operating units.
    Responsibility for security clearly does not rest solely with OSY. 
Security is also directly related to safety at NIST. At NIST, I am 
responsible for ensuring the security of the personnel, facilities, 
property, information and assets in accordance with applicable laws, 
regulations, Executive Orders, and directives. The Director of Security 
is responsible for advising and assisting heads of operating units. 
Thus, OSY and NIST mutually support one another to protect the 
personnel, mission, information, and infrastructure at NIST's 
facilities.
    I am committed to a comprehensive assessment of the roles and 
responsibilities of OSY and NIST at NIST's two campuses, in 
Gaithersburg, MD, and Boulder, CO, as recommended in the GAO report. 
Currently, OSY is charged with delivering integrated law enforcement 
and security services and protection, while NIST is responsible for 
ensuring the physical security of the buildings. In practice, this 
means that NIST has primary responsibility for providing and 
maintaining electronic locks, surveillance devices, and alarms at 
NIST's campuses. NIST also is responsible for establishing local campus 
security procedures, and the maintenance and management of the physical 
security systems such as access control systems, intrusion detection 
systems, identification badging, and other security and safety systems 
designed to protect NIST assets.
    In turn, OSY provides the security personnel to monitor security 
cameras, undertake routine patrols of NIST's campuses and buildings, 
and provide emergency assistance. It also oversees a contract guard 
force that secures entry points to the campuses.
Scientific and Technical Collaborations (Section 202)
    NIST hosts over 110 conferences a year with over 13,000 attendees 
on our campus. The AICA enables streamlining of conferences at NIST and 
is critical for not only conferences but for the promotion of 
measurement science and technology transfer that is key to the NIST 
mission.
    In August of 2017, NIST participated in a Department of Commerce 
pilot effort to review, change and streamline the conference pre-
approval process. One significant policy change that resulted from this 
pilot effort was to now permit NIST to approve personnel to attend 
conferences at which the costs to attend did not exceed $200,000, which 
greatly facilitated the approval process.
    NIST continues to evaluate conference attendance policies to ensure 
that our scientists and engineers are able to provide their expertise 
for the benefit of the U.S.; conference participation is critical for 
scientific openness and effective technology transfer.
NIST Education and Outreach (Section 306)
    To further support NIST's efforts in promoting science and 
technology, NIST has already begun using the authority conferred under 
the AICA to support the mission of NIST and broaden the public's 
awareness and understanding of measurement science.
    Promoting Public Awareness of Measurement Science: NIST is 
producing a series of special reports on the worldwide consensus plan 
to redefine four of the seven basic units of measurement in the SI and 
we are funding a documentary film to help explain the case for 
redefinition.
    Hiring Authority: The new hiring authority in AICA gives NIST the 
opportunity to broaden its hiring processes. NIST is working with OPM 
to obtain critical pay authority for NIST Fellows and has submitted a 
formal request to institute this process. This request was submitted in 
November of 2016 and is pending approval.
STEM Undergraduate Experiences (Section 309)
    NIST has a long history of supporting the STEM (Science, 
Technology, Engineering, and Mathematics) career paths and growing the 
next generation of young scientists. The NIST Summer Undergraduate 
Research Fellowship (SURF) Program is designed to inspire undergraduate 
students from across the country to pursue careers in STEM through a 
unique research experience that supports the NIST mission. SURF 
students from across the country have the opportunity to gain valuable, 
hands-on experience, working with cutting edge technology in one of the 
world's leading research organizations and home to three Nobel Prize 
winners.
    Over the course of 11 weeks, SURF students at NIST contribute to 
the ongoing research of one of the seven NIST labs in Gaithersburg and 
Boulder. SURF provides opportunities for undergraduates to engage in 
hands-on research pertaining to the NIST mission under the guidance of 
a NIST scientist or engineer. To date 2,600 undergraduates have 
participated in the program from U.S. institutions of higher education 
including Puerto Rico and last summer NIST hosted 213 students.
Prize Competition, Crowdsourcing Authority (Sections 401 and 402)
    To tackle ambitious problems in support of the NIST mission, NIST 
has long used challenges to bring a community together. In the early 
1970s, for example, NIST issued a public challenge to develop a data 
encryption standard to support computer security.
    NIST continues to use challenges to incentivize action around 
important technical issues. For example, NIST's Global City Teams 
Challenge (GCTC) provides a collaborative platform for local 
governments, non-profits, academic institutions, and corporations to 
form project teams in areas such as smart and secure cities and 
communities.
    The Federal Government, and NIST's, use of prizes has ramped up 
significantly in recent years, in part due to explicit legal 
authorities, expanded under the AICA, to conduct cash and non-cash 
prize competitions. In addition to providing the explicit authority to 
offer cash prizes to winners, this authority allows Federal agencies to 
partner with private sector, for-profit and nonprofit entities.
    Since 2015, NIST has launched eleven prize competitions, all of 
which are posted on challenge.gov. The topics of these competitions 
range from the development of advanced materials that better absorb 
impacts such as those experienced by athletes and the warfighter, to 
the development of software applications using NIST scientific data, to 
new virtual reality environments for heads-up displays that can be worn 
by first responders. The last of these is part of a larger open 
innovation program housed in NIST's Public Safety Communications 
Research division (PSCR) of the Communications Technology Laboratory in 
Boulder, CO. PSCR is focusing on key areas for technology acceleration 
through prize competitions including location based services and 
enhanced user interfaces for the increased effectiveness of deployed 
technologies.
    As we continue to build our experience in prize competitions, we 
are finding new opportunities to use this mechanism to further our 
mission. The NIST Program Coordination Office is a focal point for 
Institute-wide activity in prize competitions: they serve as the White 
House point of contact for NIST's prize activities, convene a Community 
of Interest in Prizes and Challenges that allows staff to share lessons 
learned and best practices and host an internal website with resources 
for any staff interested in learning more about using prize 
competitions.
    NIST benefits greatly from the resources provided by the General 
Services Administration under the AICA. NIST posts all its prize 
opportunities on the GSA website challenge.gov, and has used the GSA's 
free platform to host several of our prize competitions. Challenge.gov 
provides additional valuable content and background about this topic at 
https://www.challenge.gov/toolkit/, which includes some content 
provided by NIST to be shared among the community.
    Crowdsourcing and Citizen Science: The authority in this Act for 
agencies to conduct crowdsourcing and citizen science activities is 
also of interest to NIST. NIST has a history of citizen science 
activities that includes decades-long high-frequency radio wave 
propagation reports for NIST radio station WWV, which broadcasts time 
and frequency information 24 hours per day, 7 days per week to millions 
of listeners worldwide from Boulder, Colorado. We are exploring the 
potential to further amplify the Institute's programmatic goals using 
the AICA authority.
MEP Program Updates (Section 501)
Hollings Manufacturing Extension Partnership (MEP)
    With Centers in all 50 states and Puerto Rico dedicated to serving 
small and medium-sized manufacturers, MEP has instituted the 
programmatic modifications authorized in the bill.
    Cost-Share: The Act changed the non-federal/federal cost sharing 
ratio for MEP Centers from a 2:1 minimum matching ratio to a 1:1 ratio. 
As a result, MEP Centers have increased partnering opportunities with 
manufacturers.
    Re-competition: Another important change contained in the AICA 
required Centers to undergo a re-competition after ten years of 
consecutive funding. Prior to the AICA, some Centers had not been 
competed since their initial funding. The re-competitions for all 
Centers that were not competed in the past 10 years were by April of 
2017. Surveys for Center project impacts go out one year after project 
completion, so the full network of Centers will have initial survey 
results of the impact of the re-competition in Spring 2019.
    Evaluations: The AICA provided clear guidance on Center 
evaluations. Under the legislation, a Center is to undergo a peer 
evaluation during its third and eighth-year of operation with a 
Secretarial review at year five, which used by NIST in determining 
whether a Center's performance merits continued NIST funding. MEP has 
instituted new processes by which these evaluations, known as Panel 
Reviews and Secretarial Reviews, are conducted. MEP is now piloting the 
new process for Centers which have entered their third year of 
operations.
    Advisory Board: The MEP Advisory Board provides guidance and 
assesses the overall performance of the Program. Under AICA, the 
membership of the Board was updated to require no fewer than 10 members 
with at least one community college representative, allowing MEP to 
increase the size of the Board and broaden its geographical reach and 
membership expertise. Following the passage of the AICA, MEP added ten 
new members to expand the Board and to replace members whose terms had 
expired. The AICA also instituted several changes to the Center 
Oversight Boards regarding membership, composition, term limits and 
conflicts of interest policies. These have been incorporated in the 
General Terms and Conditions of each Center's cooperative agreement.
    Competitive Awards: The legislation also clarified the criteria to 
make special competitive awards. These awards allow Centers in good 
standing to receive additional funds based on the availability of 
funding for projects outside the scope of their base award.
Conclusion
    NIST is proud of the positive impact it has had and of the 
improvements we have been able to make with the AICA authorization. 
NIST maintains its longstanding commitment to advancing measurement 
science in order further innovation and increase the competitiveness of 
U.S. industry. NIST's broad technical portfolio positions the agency to 
contribute productively and rapidly to emerging national needs. With 
NIST's dedicated technical staff, one-of-a-kind facilities, and 
objective, non-regulatory role we are well positioned to have an 
outsized impact on the U.S. economy, quality of life, and national 
security. With the continued support of this Committee, NIST will 
continue to thrive in its important mission to promote U.S. innovation 
and industrial competitiveness.
    Thank you for the opportunity to testify on NIST's implementation 
of AICA. I would be happy to answer any questions that you may have.
                                 ______
                                 
 Walter G. Copan, PhD., Under Secretary of Commerce for Standards and 
                     Technology, and NIST Director
    Dr. Walter G. Copan was confirmed by Congress as Under Secretary of 
Commerce for Standards and Technology and NIST Director on October 5, 
2017.
    As NIST Director, Dr. Copan provides high-level oversight and 
direction for NIST.
    He has had a distinguished and diverse career as a science and 
technology executive in large and small corporations, U.S. Government, 
nonprofit and other public-sector settings.
    Dr. Copan formerly served as president and CEO of the IP 
Engineering Group Corporation, providing services in intellectual 
property strategy, technology commercialization and innovation. Until 
June 2017, he was founding CEO and Chairman of Impact Engineered Wood 
Corporation, an advanced materials technology company. He also is a 
founding board member of Rocky Mountain Innovation Partners, where he 
led technology transfer programs and innovation services on behalf of 
the U.S. Air Force Academy, U.S. Federal labs and academic institutions 
and helped foster entrepreneurial businesses in the Rocky Mountain 
West. He also served with the National Advisory Council to the Federal 
Laboratory Consortium for more than 5 years, providing industry inputs 
to advance the U.S. economic impacts of the Federal laboratory system.
    From 2010-2013, Dr. Copan served as managing director of Technology 
Commercialization and Partnerships at DOE's Brookhaven National 
Laboratory (BNL). Among his accomplishments were leading the creation 
and implementation of the new DOE technology transfer mechanism, 
``Agreement for Commercializing Technology'' (ACT), to facilitate 
collaborations between the Federal labs and U.S. corporations. He led 
the ``Startup America'' initiative on behalf of DOE for entrepreneurial 
business creation, and he initiated the DOE's new Small Business 
Innovation Research--Technology Transfer (SBIR-TT) program, which built 
upon the experiences of NIST. He served as founding partner and board 
member of the ``Accelerate Long Island'' alliance for innovation, 
economic development and early stage investment.
    From 2005-2010, Dr. Copan was executive vice president and chief 
technology officer at Clean Diesel Technologies, Inc., an international 
technology development and licensing firm. He spearheaded the company's 
transformation, growth and listing on NASDAQ (CDTI), as well as the 
company's subsequent merger. Prior to joining CDTI, Dr. Copan served at 
the DOE's National Renewable Energy Laboratory (NREL) as Principal 
Licensing Executive, Technology Transfer. There, he led organizational 
changes that strengthened relationships with industry and the 
investment community, and led to the more productive commercialization 
of energy-related technologies.
    After earning dual B.S./B.A. degrees in chemistry and music from 
Case Western Reserve University in 1975, Dr. Copan began his career in 
chemicals and materials research at the Lubrizol Corporation (now part 
of the Berkshire Hathaway Group). He earned a Ph.D. in physical 
chemistry from Case Western in 1982, and subsequently held leadership 
positions at Lubrizol in research and development, strategy, business 
unit management, venture capital, and mergers, acquisitions and 
strategic alliances in the U.S. and abroad. As managing director, 
Technology Transfer and Licensing, from 1999-2003, he was responsible 
for Lubrizol's corporate venturing and open innovation, technology 
strategy, business development, intellectual assets and the technology 
licensing business.
    Dr. Copan is a patent holder, has authored numerous professional 
publications and presentations, and has served on the boards of many 
organizations, including the Licensing Executives Society (LES) USA and 
Canada, where he recently served as regional vice president for LES 
USA. He has contributed to the U.S. National Academy of Sciences, the 
Council on Competitiveness, the World Intellectual Property 
Organization and the United Nations on innovation, technology transfer, 
energy and economic development matters.

    Senator Gardner. Thank you, Dr. Copan.
    And I would ask unanimous consent to insert into the record 
a letter to Senators Thune and Nelson from the Office of 
Science and Technology Policy.
    Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Gardner. Dr. Cordova, you mentioned LIGO. I had the 
opportunity two months ago to visit a company, a business in 
Boulder, Colorado, called High Precision Devices, very, very 
much involved in the development and the research done to reach 
the incredible work they did with the LIGO project. And we 
talked about a number of other work that they were doing there, 
a number of other projects that they were undertaking there, 
including the calibration for MRIs and how you can get the most 
data out of an MRI and what to do, a lot of it funded through 
NSF. NSF is responsible for about, if I'm correct, about 20 
percent of our Nation's federally funded research. Is that a 
good ballpark figure?
    Dr. Cordova. I think we like to claim a little higher, 
about 27 percent.
    Senator Gardner. About 27 percent. Very good, very good. 
And so could you--27 percent. Does NIST have the other 73 
percent? There is no other function, though, really, like NSF 
that gets dollars out into the community, is that correct?
    Dr. Cordova. Well, the thing about NSF, it's so broad, its 
spectrum of what it funds all the way from computer science, 
social and behavioral sciences, the physics, chemistry, math, 
it has got a very, very broad portfolio, whereas other, most 
other agencies are just specifically on health, for example, or 
space or energy. So it's really--it's really the breadth of it.
    In computer science, for example, we fund 83 percent of the 
academic research that's funded in the entire Nation, 83 
percent.
    Senator Gardner. And that's pretty incredible. So, you 
know, when it comes to funding issues, 83 percent of the work 
being done in computer science, and when you talk to anybody in 
industry, when you talk to somebodhuy in, you know, Silicon 
Valley, when you talk to somebody in Boulder, Colorado, they 
talk about the need for additional computer scientists and 
majors, and so that's why it's so important to get this right 
from a funding perspective.
    Dr. Cordova, a follow up. NSF was not charged with the 
basic responsibility of coming up with how to reduce the 
burden, the regulatory or administrative burden, on some of the 
grants that are out there. I believe OSTP was, and that work 
continues there.
    When we had our roundtables, we heard from researchers, who 
talked about as much as 42 percent of their time filling out 
administrative paperwork and complying with government 
regulations, 42 percent of their dollars would go to that kind 
of overhead. In the bill, we directed OMB and OSTP to come up 
with ways to reduce these burdens.
    You've not been tasked with this yourself, but could you 
talk about some of the ways that you think would help benefit 
OMB and OSTP will head when it comes to reducing the burdens 
that researchers face and how NSF can work to make sure those 
dollars are spent more efficiently on the science itself?
    Dr. Cordova. Yes. You mentioned the National Science Board 
in your remarks. And the National Science Board had a task 
force on administrative burden a couple of years ago, and they 
identified a number of ways in their report that NSF could help 
out the research community. And we've been implementing a 
number of those recommendations, and, of course, we have our 
own internal groups on administrative burden.
    Part of our effort we call ``Renewing NSF'' is focused on 
streamlining all our processes and our practices. And we're 
starting with the merit review practice, which, as you know, 
that's the heart of NSF, that's what we do, is we get money out 
through the merit review process to the community. And we 
figure if we can streamline that process and make it more 
effective, then we will reduce the burden on proposers by 
having the proposals process look the same no matter where 
you're applying through NSF, have more standardized 
solicitations, more regular kinds of deadline requirements, and 
so forth.
    So, yes, we can do our part. And then this is something 
that everybody can take a part in Congress and the universities 
themselves in streamlining processes. I was at one time a 
researcher at the university, and I know all about the 40 
percent administrative burden in filling out paperwork, so I'm 
a very sympathetic player here.
    Senator Gardner. Thank you, Dr. Cordova.
    Dr. Copan, when you had your confirmation hearing, we 
talked a lot about commercialization, which is also an integral 
part of the American Innovation and Competitiveness Act. Could 
you talk a little bit about the commercialization efforts that 
you've undertaken at NIST since you've been there?
    Dr. Copan. Absolutely. And as someone who has worked in 
this field for many years, this is a passion that I bring to 
NIST as well as to the Federal sector as a whole.
    As we've been comparing notes with the National Science 
Foundation, we've been utilizing common practices and sharing 
practices across the Federal sector. And as we also now look to 
the future to the implementation of the review that I described 
at my confirmation hearing, the opportunity to enhance return 
on investment from the United States investment in science and 
technology is a great opportunity for this Nation.
    The Bayh-Dole Act has served the Nation well, Stevenson-
Wydler has in addition, but we continue to hear from both 
practitioners as well as from industry. There are opportunities 
to do it better. And so during the time that I am with NIST, we 
will be expanding our review of Federal technology transfer and 
seeking ways to reduce the administrative burden and some of 
the unintended barriers to bringing commercialization from the 
laboratory into the commercial marketplace for this Nation's 
benefit.
    Senator Gardner. Thanks.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. Actually, I want 
to pick up on those thoughts on commercialization because I've 
been hearing this a great deal as I've been out talking to 
folks. It certainly was a critical part of our legislation as 
well. And there certainly is significant challenge for these 
ideas to cross the valley of death to actually become companies 
going forward.
    Dr. Cordova, you mentioned the I-Corps program as being 
extremely successful, and, of course, we expanded that in this 
legislation. And I can speak from experience from one of my 
universities. We have many great ones in Michigan, but the 
University of Michigan in particular is home to one of the 
seven I-Corps nodes and for years I think has been quite an 
example of how you bridge that valley.
    Dr. Cordova, could you provide a little bit more detail as 
to the mechanics of how NSF is going to be collaborating with 
other agencies, like the Department of Energy, NASA, and even 
the Department of Defense going forward?
    Dr. Cordova. I-Corps is a very structured program that 
includes mentorship and entrepreneurship, the academic 
component, and, of course, the student practitioners, graduate 
and undergraduate students. And it has a very well-defined 
curriculum that it takes the students through, and then there's 
the partnership aspect, and then there is the business aspect 
going out and making the calls to the marketplace widely to see 
if the research or discovery of interest has any market 
potential. So they learn all of that in this structured way. 
And it takes this whole environment to kind of get them the 
wherewithal and to rev up this whole process of learning and 
understanding what market potential really means.
    So that's a process that others have copied--they utilize 
our processes and our people, and they've learned how we do 
this, how we do this course of instruction and engagement; and 
we are the ones that help them out. So, our folks that do this 
with the nodes, the eight nodes, around the country and all the 
sites, are then loaned, as it were, to these other agencies to 
make sure that they have the same kinds of approaches. And then 
they take off, they learn it, as it were, of course, 
themselves, and then they can replicate it and do it. And 
that's how we build scale into the program because, as you 
know, scale in these kinds of things that are human endeavors 
are the most difficult things to achieve.
    And so the only way we can achieve really a great scale on 
the Innovation Corps is to be teaching this to others so that 
they in turn can teach it. And so that's what's happening. 
We've done that course in Mexico and in Ireland and in the 
State of Ohio, which is now I think in its third year of doing 
it.
    Senator Peters. Right. Thank you.
    I want to comment on the other program that you mentioned 
as well in your testimony, is the MEP program, Manufacturing 
Extension Partnership. I've just seen great success with that 
in Michigan, particularly helping small to medium-size 
manufacturers leverage what they do so well, but do it in a way 
even better as a result of that program.
    If you could talk a little bit about the cost share and 
also the success of that program and why we really need to 
continue to fund it and the fact that it really--it has really 
measurable results that we should all be proud of.
    Dr. Copan. Thank you, Senator Peters. As Secretary Ross had 
also testified, the MEP is a program that has delivered success 
for the country, and I believe that the statistics for return 
on investment to the U.S. taxpayer have been well publicized 
and have been experienced state by state, including in the 
State of Michigan.
    We have benefited, I believe, from the change to the cost 
share model. All of the centers across the Nation have shifted 
to the new guidance, and we have seen greater leverage from the 
outreach from each of the MEP centers nationwide.
    In addition to programs like that, we've also focused on 
the resilience of the U.S. manufacturing infrastructure in the 
wake of the hurricanes that affected Puerto Rico and the Gulf 
border states. We have seen the MEP program step up to help the 
small manufacturers restart their business operations through 
the direct engagement of the MEP centers. So not only is it 
enabling U.S. industry, but certainly we've seen it as a 
program that's important to keep America strong in the wake of 
natural disasters.
    Senator Peters. Great. Thank you.
    Senator Gardner. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    First of all, let me just say I wasn't here the time you 
passed the American Innovation and Competitiveness Act, but----
    Senator Gardner. It was a wonderful time.
    Senator Cortez Masto. I want to thank both of you. I mean, 
it really is good legislation and it has a positive impact in 
our communities in the country, so thank you for that.
    Senator Gardner. Thank you.
    Senator Cortez Masto. And thank you, both of you, for being 
here.
    Dr. Cordova, I'd like to start with you. I am a proud 
supporter of broadening opportunities in STEM fields for 
minorities and women. That's why I introduced the Code Like A 
Girl Act, which is supported by groups like our Girl Scouts, to 
further promote efforts to engage young girls in computer 
science and hopefully provide the role models and exposure to 
make the estimated millions of unfilled STEM jobs an option for 
everyone.
    I know, Dr. Cordova, you obviously are one of those 
incredible role models, as I've looked at your background, and 
while we are talking about this, however, and the need for it, 
and we are making advancements, just last November, GAO 
documented that from 2005 to 2015, they found that no growth 
occurred for female workers in technology.
    So would you agree, is there more work that can be done 
really to get young women exposed and motivated and energized 
in these fields? And if you would, talk a little bit about how 
we can do just that.
    Dr. Cordova. Yes, absolutely, that's kind of a shocking 
statistic. There's just enormous potential out there, and we 
really need it. I mean, just hearkening back to Senator 
Gardner's remarks about the recent science and engineering 
indicators report: We have a lot of other countries that are 
making faster progress than we are, and we really need to, for 
many reasons, including that one, turn to the talent pool that 
is right here all around us and develop that for our country's 
future.
    So NSF has been involved in all disciplines, including, of 
course, computer science, in promoting the advancement of--
well, in broadening participation in general and promoting the 
advancement of women and underrepresented minorities in 
particular.
    And I just want to mention two programs really quickly and 
then go to computer science.
    We've had for a long time the ADVANCE program, which is to 
promote women in universities to engage them in joining 
universities' professorships and then assure that they stay, 
they're sustained, and then achieve higher levels. And I myself 
was a PI for the ADVANCE grant at Purdue, and so like--love--
the program.
    And more recently, we've initiated a program called 
INCLUDES, which is really addressed to bringing in everyone in 
the Nation to giving them more access to STEM careers and with 
a particular focus on women and, again, underrepresented 
minorities.
    We are funding currently 70, 69, INCLUDES pilot programs 
all across the Nation, which are really community groups 
comprising universities and civic organizations, community 
colleges, in some cases, the state itself, in furthering 
opportunities, and many of those INCLUDES grants have to do 
with computer science in a number of states, and I can give you 
a list of those.
    And more specific to computing, we have a program called 
Computer Science For All, which is to make sure that teachers 
have the preparation they need because, after all, going back 
to my remarks about scaling, in order to really scale 
something, you have to train the trainers and so forth. This 
has to go forward through other people.
    So this effort combines professional development 
opportunities for teachers at all grade levels together with 
research studies at the pre-K to 8 level that will focus on how 
to integrate computer science and computational thinking into 
their classrooms.
    And I have any number of examples which I could send you 
subsequently, Senator, about specific examples of computer 
science programs that we're funding that are making a real 
difference, I think, that are directed towards increasing women 
and underrepresented minorities, and we have the data to show 
that they are making the difference.
    Senator Cortez Masto. Thank you. And so I'm glad you 
highlighted that because I know particularly in Nevada as well, 
UNR is a recipient and works with you and include a program; 
our community colleges are HSIs, Hispanic-serving institutions, 
work closely. So thank you. I think there is a benefit to the 
funding and the support of really targeted in this area and 
working with our colleges and our universities.
    At the same time, you also focused on the last question I 
had with the metrics. I think it's so important that not only 
as we put the money in here and we're working very hard to open 
this door, that we are collecting data and the metrics to show 
that it is having the positive impact or the intended impact 
that we are focused on through this Act. So thank you very 
much.
    I ran out of time, Mr. Copan, so I didn't get a chance to 
ask you questions, but I'll submit those for the record.
    Thank you very much for being here.
    Dr. Copan. Thank you so much.
    Senator Gardner. If you don't mind, we'll also go another 
round, so you're welcome to stay, Senator. I know we all have 
busy schedules and other committees, so if you have to leave, 
we'll take it for the record.
    But I would just say that this was a great effort by the 
Committee, as a team, to pass this bill. In fact, I think there 
were three times a year ago that it was written that the bill 
had died and would never be passed by the House.
    [Laughter.]
    Senator Gardner. It was the bill that kept coming back to 
life. And I think it was finally signed--Senator Peters and I 
thought that this bill would go down in history as the last 
bill signed by President Obama before the inauguration. 
Unfortunately, I've been told that there may have been a bill 
he signed on the last day he was in office, so we will forever 
be lost in history as the third or fourth last bill to ever be 
signed by the President, but a great accomplishment I think in 
terms of making sure that we're growing the bipartisan support 
for science.
    Dr. Cordova, this morning I had a chance to meet with some 
people about investment in science by China, and we were 
talking about the overall--I think the U.S. basically 
contributes about .7 percent of our GDP toward research and 
development. And this group thought it would be in our best 
interest if we could grow that number to 2 percent of GDP that 
the Federal Government would contribute towards research and 
development. What would happen in terms of our research and 
development opportunities if we were to hit that level and to 
greatly expand our research to something like 2 percent of GDP?
    Dr. Cordova. I think you have to break down research and 
development into its components of basic research and applied 
research and development. I think development has a lot of 
investment in it, especially by the business community, they're 
the dominant players. And so where I think the emphasis is or 
should be from our point of view is on really growing 
investment in basic research because that's at the root of 
technology and tech transfer, and that's why we work so closely 
with NIST in going to the next level to the more applied 
research and then eventually then business takes it over into 
development.
    It would be transformational to grow the basic research 
budget. I mean, look at all the things we have, some of which 
you all have mentioned. I know Senator Peters was recently at 
the auto car show in Washington, D.C., and there is the 
artificial intelligence that's being used in autonomous 
vehicles, self-driving cars, much of it is NSF-funded, and 
that's just one segment of society. There's the medical, and 
you mentioned MRI machines. That was also from NSF-funded 
discoveries. Gene editing was mentioned. The very first grants 
in gene editing were from the National Science Foundation 
because before something can be applied, it has to be 
discovered, it has to be new knowledge, and that's where we 
come in.
    So in all things, if you come to our new building in 
Alexandria, you see--the first thing you see is a giant wall 
that looks to me like it's 100 feet long, I'm sure I'm 
exaggerating, it's probably more like 30 or 40 feet long, but 
it's a painting, original painting, of all the different 
discoveries and impacts, the really big ones, that NSF has 
made. And somewhere in the middle there is Google because we 
funded the original founders of Google, as you know.
    And I mentioned all the companies that have been created 
just in the last few years with investments in the Innovation 
Corps program. So thinking about doubling or quadrupling that, 
as you've suggested, would be, I mean, just tremendous 
horsepower for the Nation.
    And if you want, as a country, to stay ahead, if we want to 
continue to be first, and we're looking over our shoulders, and 
as you said, seeing China and other countries coming up faster 
and faster behind us where before they used to be way behind, 
then we're just--we're going to have to be smarter, we're going 
to have to invest in and broaden the participation of more of 
our own youth, women, to be a part of STEM, and we're going to 
have to step up our investments in basic research so that these 
kinds of discoveries, ones that I said are the breakthroughs of 
the year for the last 2 years, have been NSF-funded basic 
research discoveries.
    We talked about LIGO, and those are--for those of you who 
have seen pictures of it--they're really long tubes, 4 
kilometers long, in different directions. Those tubes are not 
empty, they're full of the most sophisticated kind of 
engineering devices that are on this planet, you know, 
inventions that are unbelievable. And the transfer, the tech 
transfer, of that kind of invention that suspends the mirrors 
and they can detect something that moves the distance of a 
thousandth of the diameter of a proton; that is absolutely 
amazing: what that is going to do for the country when that's 
translated out. So the future is ours, but we have to seize it 
and invest in it.
    Senator Gardner. Thank you, Dr. Cordova.
    And I know the Chairman of the Full Committee is here, 
Senator Thune.
    I'll turn it over to you.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Senator Gardner, for presiding 
over today's hearing on the American Innovation and 
Competitiveness Act, or AICA, which we introduced and enacted 
last year along with Senators Peters and Nelson. So I'm pleased 
that NSF, NIST, and OSTP have made real progress in 
implementing the bill.
    Dr. Cordova and Copan, I also want to--I should say 
``Doctors'' plural--I also want to thank you for being here 
today. I think it's probably the first time that you each have 
testified in front of this Committee in your new position.
    Dr. Cordova. Yes.
    The Chairman. Is that correct?
    AICA represents, as you know, the most comprehensive 
science and technology policy legislation enacted since the 
America COMPETES Act in 2007 and 2010, and like those Acts, it 
reauthorized and updated policies at NSF, NIST, OSTP, and other 
Federal science agencies. Specifically AICA sought to maximize 
basic research, advance public-private partnerships, enhance 
agency oversight, promote STEM education, and increase research 
commercialization.
    In my home state of South Dakota, AICA provided further 
support for the Deep Underground Neutrino Experiment and the 
Long-Baseline Neutrino Facility at the Sanford Underground 
Research Facility by tasking OSTP with new responsibilities 
related to the prioritization and coordination of high energy 
physics research and international science and technology 
partnerships. It also updated the Established Program to 
Stimulate Competitive Research, or EPSCoR, which assists South 
Dakota in maintaining a self-sustaining and competitive 
academic research enterprise.
    The Act required updates based on recommendations of 
previous EPSCoR reviews to maximize the impact of Federal 
support for building a competitive research infrastructure 
across all states. So I want to again thank you for the 
progress that you have made in implementing the legislation.
    And I do have a couple of very quick implementation 
questions I'd like to ask. One deals with how AICA prioritized 
cybersecurity standards and research at NIST and NSF, including 
NIST research for future cybersecurity needs, like quantum 
computing, and NSF-sponsored research into the role of human 
factors in cybersecurity.
    This Committee has also advanced other bills and laws this 
year that address the issue of cybersecurity, including the 
MAIN STREET Cybersecurity Act to facilitate the use of NIST's 
cybersecurity framework by small businesses, and the 
Cybersecurity Scholarship Opportunities Act to update NSF's 
CyberCorps Scholarship for Federal Service program, a program, 
which I might add, Dakota State University of Madison, South 
Dakota, is the largest participant in, in terms of supported 
students.
    So the question is, if you could highlight how your 
agencies have and will continue to advance work in the critical 
area of cybersecurity, aligned with AICA, and how you see your 
role in partnering with educational institutions like DSU?
    Dr. Copan. Thank you, Mr. Chairman. The opportunity to 
discuss cybersecurity is very near and dear to my heart with 
the role that NIST plays in the leadership of cybersecurity and 
the development of the cybersecurity framework, which has been 
transformative for this Nation. Also in the Cybersecurity 
Framework's implementation in government as well as broad 
penetration through U.S. industry all the way through to the 
Department of Defense supply chain through small business and 
through the support that's provided throughout the NIST 
programs.
    We see that the scientific integrity that underpins the 
development of cryptography and also post-quantum cryptography 
is an important area of ongoing research at NIST. As we look at 
the future integrity of our systems, we also look to the 
implementation of blockchain technologies more broadly than in 
crypto currencies. And NIST has recently issued a report 
highlighting some of the implications of blockchain 
technologies, which I believe this Committee will be hearing 
more about in the days and weeks to come.
    The Framework is an essential element of our programs and 
so is Cybersecurity education which will enable the next 
generation of scientists and engineers to be prepared for 
careers in cybersecurity and cryptography research.
    Thank you.
    Dr. Cordova. Chairman Thune, I'll add just a bit. We 
appreciate the leadership that you and this Committee have 
shown on this very important issue. NSF also is committed to 
strengthening cybersecurity education. And the CyberCorps 
program has been successful to date.
    You mentioned Dakota State University near Sioux Falls. 
It's one of the 13 Centers of Academic Excellence in Cyber 
Operations, as designated by the NSA, and NSF has a partnership 
with it.
    The focus on cybersecurity education has also resulted in 
the school receiving a very generous gift from private 
industry, which is further leveraging these efforts.
    NSF was pleased to respond to the requirements of the Cyber 
Scholarship Opportunities Act, which expands CyberCorps' 
scholarship availability to community college students, and 
this is very important. As you know, we've had the CyberCorps 
Program Scholarships for Service for a long time, and that--the 
aim of that program is to develop a well-educated cybersecurity 
workforce for the government. It gives students up to 3 years 
scholarship in return for their service to the Federal 
Government, state, or local, or tribal government.
    At this point, there are 14 collaborations between 
community colleges and four-year institutions that we funded. 
And in addition, the Cyber Scholarship Opportunities Act 
codifies the CyberCorps K-12 education program called 
``Inspiring the Next Generation of Cyber Stars.'' The GenCyber 
summer camps--I wish I had been able to go to such a camp, it 
sounds great--helps to seed the interests of young people in 
this exciting and exploding field.
    The Chairman. Right. Now, Senator Gardner would have liked 
to have gone to some of those camps, too, but he was----
    [Laughter.]
    The Chairman.--probably busy doing--no, I'm kidding.
    Senator Gardner. Exactly.
    The Chairman. You were very busy. Yes.
    I have one other question that I can submit for the record, 
Mr. Chairman, but I appreciate again your efforts to 
implement--and I guess I'm supposed to call it AICA. There's an 
acronym for everything around, you try to summarize it, yes, 
but, OK. All right. Thank you.
    Senator Gardner. Thanks, Senator Thune.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Senator Gardner.
    And to Chairman Thune and Ranking Member Nelson, I'm very 
grateful to both of them for this important hearing.
    And thank you to both of our witnesses for being here 
today.
    Before I get into my questions, I just did want to point 
out that it's my understanding that the Committee had hoped to 
have someone from the Office of Science and Technology Policy, 
OSTP, join us as a witness today. However, because there still 
has been no one appointed to head the office, OSTP is not able 
to join us. I've called on the President to make OSTP a 
priority, as science and innovation are the keys to unlocking 
our Nation's economy and spurring U.S. global competitiveness.
    So I've written to the President about this topic several 
times. I just would like to register my disappointment that no 
action has been taken to fill this very critical role.
    As to questions for the panel, to both of you, some 
politicians, most of whom have no scientific training or 
background, have targeted federally funded research in science 
for funding cuts. But federally funded research has resulted in 
breakthroughs that have saved lives, prevented disease, and 
saved citizens, businesses, and taxpayers significant amounts 
of money.
    For example, the U.S. Department of Agriculture research 
made it possible to effectively eradicate the screwworm that 
was killing off our Nation's cattle supply. This saved the U.S. 
cattle industry billions of dollars over the last 50 years. 
Today, that same research is being used to investigate methods 
to control Zika-carrying mosquitoes. This underscores the 
importance of funding studies into various issues, as we just 
don't know when this research will come in handy to save lives 
and money.
    So how are your agencies looking to balance the need for 
fiscal responsibility with the need to fund various types of 
research?
    And, Dr. Cordova, I'd love to start with you.
    Dr. Cordova. How are we doing more with less? Is that----
    Senator Hassan. Or how are you balancing and where would 
you like more?
    Dr. Cordova. So we're always looking for efficiencies. In 
fact, today we had a town hall on this subject called 
``Renewing NSF,'' and we identified four ways going forward to 
look for efficiencies, upping our IT game, fitting the 
workforce better to the work through training programs, 
streamlining our processes and practices, especially starting 
with the merit review practice, and looking even further to 
more partnerships to leverage what we do so we can do more, and 
also leveraging--our partnerships has the added effect of just 
bringing more people in and engaging them in our furthering the 
progress of science.
    So, but ultimately it really devolves to making priorities 
about what--you know, what you're going to do with the funds 
that you have. And so we do that in a couple of different ways. 
We have a bottoms-up approach, which is the community, through 
decadal reports of the National Academy of Science and 
Engineering and Medicine, we get input from the communities. We 
also get it from our advisory committees, and we get it from 
individuals and crowdsourcing and all.
    And then we have a more top-down approach where we have 
congressional, administrative, and senior leadership 
priorities, and we bring those all together and devise 
constantly a continuing strategic plan on where the country is 
going--what's important to invest in.
    So let me just give you one example----
    Senator Hassan. You know, I'm sorry, but I only have about 
2 minutes left.
    Dr. Cordova. OK, sure. Of course.
    Senator Hassan. And I want to give Dr. Copan a chance.
    Dr. Copan. Sure. Thank you very much. The budget balance is 
always a challenge, and it's also an opportunity. And I think, 
as Dr. Cordova has said, it's an opportunity to gain greater 
efficiencies and greater leverage within the Federal sector, 
working more effectively with the private sector, and across 
the Federal enterprise to identify opportunities that will 
really make a difference for this Nation.
    We have gone through, and the AICA has been an important 
spur to NIST in revitalizing our strategic planning process and 
looking at the impact of critical programs and looking at 
cross-disciplinary leverage across our organization because, 
indeed, NIST touches every facet of the U.S. economy.
    Senator Hassan. Right.
    Dr. Copan. And so it's really our goal, as we look at those 
strategic thrust areas that we identify that are cross-cutting, 
that they will leverage, they will build upon the shoulders of 
the great research that we're doing now, and will be able to 
have cascading effects into the economy.
    Senator Hassan. Well, OK. Thank you very much. That's 
helpful.
    I have just 50 seconds, and I want to ask I think a quick 
question. I know Senator Gardner noted that the Federal 
Government has been spending less as a portion of its GDP on 
research and development. And while our investment levels are 
relatively low, other countries, like China, are spending more 
on R&D and making great strides in innovation.
    So how important is Federal investment to maintaining 
global leadership when it comes to new technologies and 
innovations? And should Federal R&D be considered a matter of 
national security? Just briefly from both of you.
    Dr. Copan, I'll start with you.
    Dr. Copan. Investment in science and technology is critical 
for the Nation's future, for our competitiveness. I believe 
that we can be prudent about how we invest to gain maximum 
benefit for the U.S. economy and to assure our leadership. We 
see that we have to not only invest in fundamental research, 
but, indeed, to translate that research into applications. The 
critical role that NIST plays in standards takes what we learn 
in our measurement research and how we apply that research to 
the products and services of U.S. industries and that helps 
maintain a level playing field for the U.S. in international 
trade, which is a critical part of national and economic 
security.
    Senator Hassan. Well, thank you. I'm over time. I see--I'll 
ask the question on the record, too, and look forward to your 
response, Doctor.
    Dr. Cordova. Thank you.
    Senator Gardner. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    I think on the funding issue in the fact that when Senator 
Gardner and I held all of those roundtables, the issue of money 
came up quite a bit with each and every one of those 
roundtables. But I think the real takeaway from it wasn't just 
the increase in funding, although that's obviously very 
important to the scientific enterprise, but the big part of it 
was just to have some stability, to have an idea of what's 
going to be coming in the years ahead so that you can make 
plans.
    So my question is to get a sense from how the fact that we 
have been basically passing continuing resolutions, CRs, for 
about 2, 3, 4 weeks at a time, whatever it may be, multiple 
ones of those, that to me I know it's very difficult to manage 
an organization 3 or 4 weeks at a time. I'm sure it's very 
difficult for you to do that. And I would just like to get a 
sense, given the fact that I'm actually--we're going to be 
holding a hearing and working with Senator Rand Paul, the 
Ranking Member on the Federal Spending Oversight Subcommittee, 
and we're going to look at the impact of the short-term CRs on 
the management of the business of government.
    But I'll start with you, Dr. Cordova, and then, Dr. Copan, 
if you could follow, what has it meant for you in managing your 
organization as a result of the short-term CRs?
    Dr. Cordova. Well, Senator, I think, as you're implying, 
it's disruptive. So, for example, on the last pre-shutdown, of 
course, we didn't know which way it was going to go, and so all 
the senior leadership stopped work to plan just in case there 
was a shutdown, of course. So we cancel meetings. We look at 
all the travel that our own people have. There were 85 people 
scheduled to travel that weekend, and they were all wondering, 
``Should I travel or not?'' and we said, ``After midnight you 
will know.'' And we had hundreds of people that were coming 
from the outside to participate in the merit review process for 
the next week. And so all of--when the shutdown actually 
happened, we had to cancel all of that. We canceled 10 merit 
review panels. Just for those who don't know, on any given day, 
we have between 200 and 600 visitors who are part of the merit 
review process, they're coming from other universities and 
other establishments, foundations, and all to help evaluate the 
proposals. And so all of that was canceled; it was disruptive 
in their lives.
    And so in preparing for next week, we learned some lessons, 
so we'll smooth out--we'll have more meetings, of course, so 
we're dropping other things. And tomorrow will be the start of 
the first meeting to prepare for perhaps a post-February 8 
shutdown. And just one example that I shared earlier with 
Senator Peters, and this is only one out of hundreds, we had 
the three Nobel Prize winners in physics this year who won the 
prize for the discovery of gravitational waves all coming, 
flying in, on February 8 to give a talk to reprise their Nobel 
lectures for the NSF staff because they're so grateful to 
having been funded for those decades, on February 9, and 
they're asking us, ``Should we come?'' So that's just--because 
they may come, and if we're shut down, then, of course, they 
can't give their lectures, and we have to send them home, and 
that's to California for two of them, and Boston for the third.
    And so that's just one example out of hundreds of the kinds 
of disruption, but everybody just basically stops work in order 
to gear for shutdown and their further instructions.
    Dr. Copan. I must echo some of those remarks in terms of 
disruption to operations and travel. We have a lot of user 
facility engagement at NIST that includes a small nuclear 
reactor facility as our source for neutron research and 
biological systems, biomolecules, and polymer systems, et 
cetera. And so we had to go through an orderly process to deal 
with visitors from across the Nation and from around the world 
so that they would not lose the experiments in some cases that 
they have been planning for months and, indeed, years.
    So it is a challenging environment in which to manage. I 
must say that there are lessons that have been learned as a 
result of the process, and I believe that we will be able to 
manage effectively as we deal with further uncertainties. But I 
think that ultimately putting the U.S. science and technology 
enterprise to work as quickly as possible and maintaining, as 
you've indicated, the stability of the environment for research 
so that we can look to the long-term impact onto the economy.
    Senator Gardner. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Just one follow-up because, Dr. Copan, one of the concerns 
I had, and we has this discussion last time, over 
cybersecurity. And last time we had a conversation, and I know 
through written questions I had asked you about working on the 
critical need for engagement of cybersecurity support for our 
small businesses. And I am just curious, can you talk about 
what efforts you are putting in place since your confirmation 
and maybe elaborate a little bit more on apparently the report 
that was issued. Is that also something that should be given to 
our small businesses as well so they can have that assistance?
    Dr. Copan. Thank you, Senator. Cybersecurity is important 
for corporations large and small, and small companies, as we've 
seen reports, are the most vulnerable, and the probability is 
high that those companies will no longer be in business as they 
are victims of a cyber attack or breach. So it has been a high 
priority for NIST.
    The AICA authorization has been an important part of 
supporting NIST's focus in this area. We've worked through our 
advanced manufacturing institutes. We have worked using our 
broad network of U.S. manufacturing focused on small to medium-
size enterprises providing cybersecurity training basically to 
translate the cybersecurity framework into the language and the 
format the small enterprises can utilize, and that has been a 
process that has been hugely appreciated. It has also been part 
of the Department of Defense supply chain readiness around 
cybersecurity that has been a strong partnership between NIST, 
the Department of Defense, and our U.S. manufacturing 
infrastructure. We take that very seriously, and we know that 
this is a challenging environment with threats that are 
emerging and evolving. We've certainly seen evidence of that in 
the press on a regular basis with threats to central 
processors, for example.
    And so we look forward to continuing to work in providing 
information, even in the phase of a shutdown. The National 
Vulnerability Database on cyber threats and the patches to be 
implemented, and the testing processes behind those patches 
have been maintained again in support of U.S. industry large 
and small.
    Senator Cortez Masto. Thank you. So I know in Nevada--and I 
talk on a regular basis with our small businesses--this is one 
of the issues--right?--because they don't have the resources 
they need to really tackle cybersecurity, and they're looking 
for additional resources. Is there something that you can 
provide to me, some information, that I can give to them? So I 
have a small business manual that I put out in the State of 
Nevada for a lot of our chambers and our small businesses. Is 
there--if my staff reaches out, can we get some information 
that we can share with them that helps them address the 
cybersecurity needs that they have?
    Dr. Copan. Absolutely. We have materials, we have training. 
And through our Baldrige Performance Excellence Program, we 
have a Cybersecurity Excellence implementation framework for 
companies, again, large and small, to utilize best practices 
that are available, and these are all materials that are 
available and we'd be delighted to provide.
    Senator Cortez Masto. Great. Thank you. Thank you very 
much.
    Senator Gardner. Thank you.
    And I know Senator Markey is on his way and wanted to ask 
some questions, so we'll ask a few more, too, if you don't 
mind.
    I guess the final question that I would have for you is 
twofold. One, given the authorizations, the language of the 
American Innovation and Competitiveness Act, what more should 
we do? Did we get it all right? Did we get something wrong? Are 
there additional tools, resources, or legislation that you need 
or are looking for, or guidance that you're looking for? And 
then where do we go from here if that's on the right path?
    Dr. Cordova. That's a real----
    Voice. Your mic, please. Your mic.
    Dr. Cordova. To suggest legislation?
    [Laughter.]
    Senator Gardner. Please.
    Dr. Cordova. No----
    Senator Gardner. Staff--just so you can know, staff are 
shaking their heads violently no.
    [Laughter.]
    Senator Gardner. You can't see them, but they're shaking 
their heads.
    [Laughter.]
    Dr. Cordova. No. I think you've given us quite a bit here 
to do, just a lot of different emphases. And I think there just 
are a lot of challenges. If we can realize what is here in the 
Act and just do a really good job on it, we'll be a much 
improved part of Federal Government in delivering, especially 
in STEM education and facilities. I mean, you've just taken on 
a lot of very, very big issues. So I think there's plenty for 
now.
    Senator Gardner. Good. Thank you. And as you've gone 
through the Act, there are no areas where you wish it would 
provide greater clarity or additional information, so 
everything seems to be to your satisfaction in the legislation 
as it is right now.
    Dr. Cordova. Yes. And your staff are just wonderful to work 
with, and with our staff, and so I think where there is desire 
for more clarity, we just--you know, we just feel very good 
about interacting with them and seeing that we have it.
    But, no, I don't--I certainly don't have anything to add.
    Senator Gardner. Dr. Copan?
    Dr. Copan. Thank you. This legislation has been very 
important for NIST and for American science. And I'd like to 
thank this Committee once again, as I did in my opening 
remarks. It has provided clarity, it has provided enablement. I 
mentioned before the NIST focused on security, and the fact 
that that was reflected in the AICA is something that resonates 
with me as the new Director for NIST and the implementation of 
greater security awareness and a security culture within the 
NIST organization. I must say that organization has embraced 
that mandate, which needs to be led from the top.
    I believe that, looking to the future, this Committee needs 
to keep a finger on the pulse, and we, from our side and I'm 
sure between Dr. Cordova and myself, we will do our very best 
to indicate to you the challenges that we face.
    Several of the questions today have indicated the 
competitiveness issue of U.S. science and technology 
investment. We see very significant moves around the world to 
try to take the high ground around standards leadership. NIST 
has a very important role to play as we push the boundaries of 
measurement science and technology, which enables Nobel 
science-winning research that's funded by NSF, that's funded 
directly through the Department of Commerce, and through our 
other agencies.
    We have a very new environment around international 
competitiveness now that goes beyond investment strictly in 
fundamental science and technology, but we're looking to move 
our technology transfer capabilities beyond where we are today 
as a nation, as I've indicated in my response to the earlier 
question. And we have a chance, I believe, to look at policies 
and implementation more broadly to unleash the innovation 
engine in this American economy even further to remove 
unintended barriers to commercialization to access to our 
Federal research environment.
    We know that some state institutions sometimes have 
challenges in accessing Federal research because of their legal 
constructs versus what's required in Federal technology 
transfer legislation.
    So I believe all those areas will move the needle for the 
U.S. economy. And so this new frontier now in areas that are 
critical to the economy, to U.S. competitiveness, we've 
mentioned the frontiers of quantum, of future communications, 
artificial intelligence and mobility, machine learning, 
structural biology and what that means to the future of 
medicine in this Nation. So all of those will ultimately be 
reflected in the standards that drive U.S. commerce and 
international trade.
    Senator Gardner. Great. Thank you.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you. Thank you, Mr. Chairman, very 
much.
    Thank you for being here. Thank you for representing 
science and technology at this important time in our Nation's 
history.
    Director Copan, you know, when I think about cybersecurity 
and having a framework that ensures that with all of the 
advances that are made in technology, that there are also 
defenses that are put in place. So IoT is the Internet of 
Things, but in the wrong hands, it means ``Internet of 
Threats.''
    Dr. Copan. Indeed.
    Senator Markey. And so what we need to do, obviously, is to 
ensure that those safeguards are put in place. Do you have a 
way at NIST of measuring the adoption and compliance of NIST's 
cybersecurity framework? How will we know if your great 
thinking actually gets implemented?
    Dr. Copan. Thank you, Senator. That's a very, very 
important question. I know it's very dear to both of us as we 
look at the security of this Nation and taking advantage of the 
thought leadership that comes from NIST and our technological 
capacity there in understanding processes around cyber threats.
    NIST, as you know, is a nonregulatory agency of the Federal 
Government, and, as such, we don't have that kind of oversight 
in terms of audit. We do have very close relationships, 
however, with industry and across the entire Federal sector 
where we do get very regular information about the adoption of 
the cybersecurity framework across the Federal sector. We know 
that others, including the Department of Homeland Security, 
and, of course, our inspector generals, have a very keen 
interest in the deployment of the cybersecurity framework for 
the Nation.
    NIST has focused on the Internet of Things, 
interoperability, and identification of threats as well as 
strategies to mitigate threats and ultimately to ensure the 
resilience of our infrastructure for manufacturing----
    Senator Markey. So would you--I've introduced a bill called 
the Cyber Shield Act that would create an advisory committee of 
cybersecurity experts from academia, industry, consumer 
advocacy communities, and the public to create cybersecurity 
benchmarks for IoT devices, for baby monitors, for cameras, for 
cell phones, for laptops, for tablets. It could be voluntary, 
but each one could just have a grade that it gets in terms of 
its ability to be able to thwart, you know, cyber attacks.
    So what would you think of something like that so that 
manufacturers could voluntarily certify that their product 
meets the industry guidelines?
    Dr. Copan. As a standards-focused organization, I think 
NIST very much resonates with the idea of having voluntary 
standards approaches and the ability to measure how 
organizations are working with respect to compliance. So I look 
forward to our ongoing dialogue about the implementation in a 
way that's appropriate for NIST and ultimately appropriate for 
the Nation.
    Senator Markey. Yes. I think we--it's always better to 
start out where you're going to be forced to wind up anyway 
because we're going to be forced to wind up there after the 
horrific acts that occur after the accidents, the mistakes, the 
compromise of the privacy of people, or the security of people. 
So we are going to wind up there, it's just how many accidents, 
how many compromises of security. And it's every device, so the 
opportunities are going to be vast as this technology continues 
to move ever more quickly.
    And, Dr. Cordova, so good to see you again. It was great to 
see you at the dedication of the new science building up at 
Northeastern University.
    And so what I would like, if I could, with my remaining 
time, to give us some insight, if you would, into the 
recommendations that might be made by the National Research 
Council to improve reproducibility of scientific data. How 
would you envision that these recommendations be implemented?
    Dr. Cordova. So on March 8, you might know that we 
established an agreement with the National Academies to go 
forward to conduct a study for the assessment on 
reproducibility and replicability in science. And they have 
formed a committee of 15 experts. They held their first meeting 
in December. And they have four additional meetings scheduled 
in 2018.
    After a widely advertised public gathering and interactive 
webcast that included the scientific community, they have a lot 
of input and they plan to have a lot more before they actually 
give their report.
    We don't know at this point what, of course, will be in the 
report. That's--we're hands-off, and so they provide us with 
that expert external advice that we're really counting on, but 
we have high hopes that they'll give us more insight into the 
field. I can say that from NSF's own studies and its advisory 
committee studies, the subject is very heterogeneous depending 
on what field you're in.
    And some fields, like my own in astrophysics, have had 
standards for a very long time. And when something is reported 
that is important, everybody dives into it, and you can--you do 
the reproducibility and replicability immediately to test it--
but it becomes harder in some fields, like biomedical sciences 
and social and behavioral sciences. And so we're hoping that 
the Academies take a very nuanced approach to the different 
fields and what kind of challenges that they have and provide 
some best practices that they see going on around the country 
that we can publicize and share with everybody and learn from.
    Senator Markey. They very much appreciate it. And my time 
is expired. But, you know, over the portal of the Boston Public 
Library, it says, ``The best defense of a nation is the 
education of its people.'' And that's what the National Science 
Foundation and that's what NIST does on an ongoing basis, and 
we very much thank you for all of the work you do to advance 
that American ideal. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Dr. Cordova informed us that 300 Nobel laureates are 
attending I think February 9, to make sure that the government 
doesn't shut down. Is that correct? Is that what you said?
    [Laughter.]
    Senator Gardner. To help us figure that out. They deserve a 
Nobel at that point.
    Thank you very much to both of you for your time and 
testimony today, and your commitment to what we all need to do 
in this country, to focus on the incredible work we're doing in 
our science and science fields. So thank you very much.
    I will give you your homework assignment now. We'll leave 
the record open for the next two weeks for members to submit 
their questions.
    Dr. Cordova. Of course.
    Senator Gardner. If you don't mind replying to those as 
soon as you can, we would be grateful for that.
    With thanks to this Committee, thank you for your testimony 
today.
    Dr. Cordova. Thank you.
    Senator Gardner. We're adjourned.
    Dr. Copan. Thank you.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                           Dr. France Cordova
    Question. AICA directed NSF to implement recommendations from the 
NSF Inspector General and the National Academy of Public Administration 
to improve oversight of its large scale research facilities' 
construction and life-cycle costs. This provision was based on our 
Committee's oversight of projected cost overruns in major facilities 
construction, and of research facility life-cycle management. Could you 
share an estimated time frame for completion of the remaining 
recommendations NSF is still in the process of fully implementing, and 
highlight what you see as the most significant savings, efficiencies, 
or other outcomes that have already resulted or that you expect to 
result from NSF's improved oversight of this area?
    Answer. Throughout my tenure it has been a top priority to improve 
NSF's oversight of major facility projects, and I thank the Committee 
for your unwavering support in this area. We are pleased to report that 
we have completed all of the new AICA requirements regarding 
facilities.
    The new management fee policy that NSF put into place will help us 
to align our policies more closely with those used by the rest of the 
Government. This will include using the same methods to develop 
reasonable fee amounts, including considering such factors as the 
technical complexity of the work and the amount of cost risk undertaken 
by the awardees in performance.
    NSF will keep in place the controls that we have developed to 
ensure that fees are not misused. These controls include providing 
guidance to awardees on inappropriate uses of fee, separate tracking of 
fee expenses, our authority to examine those records, and our ability 
to reduce fees if they are not being used appropriately.
    As required by Section 110 of AICA, the newly-appointed Chief 
Officer for Research Facilities is serving as the senior agency 
official with responsibility for oversight of the development, 
construction, operations, and divestment of major multi-user research 
facilities across the National Science Foundation. The Chief Officer 
for Research Facilities is in the Office of the Director and reports 
directly to me as the NSF Director. He is responsible for complete 
lifecycle oversight of NSF's major facilities, including divestment.
    The Chief Officer for Research Facilities has taken a new look at 
our oversight structures, streamlined them to eliminate duplication, 
and set up a clear reporting line that enables any potential issues to 
come to the attention of my office before they become serious.
    NSF has taken a number of important steps to strengthen its 
oversight of cost proposals as required by AICA and recommended by 
NAPA. These steps began several years ago with aligning our internal 
processes more closely with GAO good practices and clearly articulating 
our expectations for proposals from recipients.
    The changes in internal processes include more effective use of 
independent cost assessments and clear requirements for well-documented 
bases of estimate for both construction and operations. The required 
independent cost estimate for new construction awards, and our expert 
panel reviews, are just two types of independent cost assessments we 
use.
    We also have put in place procedures whereby NSF can hold up to 100 
percent of the budget contingency for a construction project to manage 
known risks until the realization of risks necessitates the obligation 
of a portion of that contingency.
    To ensure that actual costs are allowable, incurred cost audits are 
used based on an NSF risk assessment with the interval between audits 
on construction awards not exceeding the three years mandated by AICA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Roger Wicker to 
                           Dr. France Cordova
    Question 1. Do you agree that a current threat facing the 
cybersecurity labor force is a lack of professors available to teach 
our next generation of cybersecurity professionals?
    Answer. Yes, and we appreciate your leadership on this issue, 
including through the passage of the Cyber Scholarship Opportunities 
Act of 2017.
    The National Science Foundation (NSF) has long been focused on the 
workforce needs surrounding the preparation of the computer science and 
STEM workforce of tomorrow. We describe some of the initiatives in the 
answer to Question 2 below.

    Question 2. How can we increase our number of professors and 
educators available to train our CyberCorps students?
    Answer. NSF recently funded the National Academies of Sciences, 
Engineering, and Medicine (NASEM) to explore the increases in 
enrollment in undergraduate computer science courses, and make 
recommendations to address how institutions can best manage high 
enrollments, respond to pressures and demands computer science 
departments are feeling in the short and long terms, and provide new 
opportunities to increase diversity in the discipline. The NASEM 
responded with the release of a Consensus Study Report titled, 
Assessing and Responding to the Growth of Computer Science 
Undergraduate Enrollments. While the report has not been formally 
released, the prepublication report, which includes NASEM's findings 
and recommendations is already helping NSF to formulate and implement 
effective actions for what is indeed a pressing and important problem.
    As computing has become increasingly central to addressing 
scientific and societal challenges, NSF has made significant 
investments in the computer science ``pipeline'' of K-12 and 
undergraduate students through programs such as Computer Science for 
All (CSforAll) and Revolutionizing engineering and computer science 
Departments (RED), respectively. At the undergraduate level, computer 
science departments are experiencing a tremendous surge of non-major 
students in their mid-level and advanced courses, as noted in the NASEM 
report. In FY2018, NSF is considering how best to support computer 
science departments and universities in responding to this changing 
landscape, perhaps by funding opportunities for restructuring 
departments and universities to better prepare students to employ the 
power of computing across the interdisciplinary and multidisciplinary 
collaborations of the future.
    NSF also makes critical investments in support of doctoral students 
and early-career faculty in computer science:

  <bullet> Early-career faculty in computer science. NSF supports 
        early-career faculty in computer science through multiple 
        targeted programs. For example, early-career faculty are 
        supported through the NSF-wide Faculty Early-Career Development 
        (CAREER) program which provides support for up to five years to 
        pursue innovative research at the frontiers of the field as 
        well as community service as demonstrated through scientific 
        leadership, education, or community outreach. Additionally, 
        since FY2015, the Computer & Information Science & Engineering 
        (CISE) directorate has funded the CISE Research Initiation 
        Initiative program, providing very early career faculty with 
        the ability to undertake exploratory research, acquire 
        preliminary data, develop new collaborations, and/or develop 
        new approaches that may lead to improved capacity to write 
        successful grant proposals in the future.

  <bullet> Incorporating teaching into computer science doctoral 
        programs. Many universities operate centers for teaching and 
        learning that provide opportunities for graduate students to 
        acquire expertise and experience in teaching and learning. In 
        computer science, NSF's CISE directorate has also provided 
        funding to mentoring programs--examples include funding a 
        biennial ``Career Mentoring Workshop'' organized by the 
        Computing Research Association (CRA), and a ``Grad Cohort 
        Workshop'' organized by CRA's Committee on the Status of Women 
        in Computing Research--both programs provide career mentoring 
        and teaching advice to attendees.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Dr. France Cordova
    Question 1. What is the status of plans to find partners to help 
keep aging, but still world-class facilities like Arecibo and the Green 
Bank Observatory in West Virginia operational? Do you have the support 
you need in Congress to move forward?
    Answer. NSF greatly appreciates the strong support Congress 
continues to show for our world-class facilities. The 2012 report of 
the NSF Portfolio Review Committee, a commissioned subcommittee of the 
NSF Directorate for Mathematical and Physical Sciences Advisory 
Committee, was charged with recommending a balanced portfolio for NSF's 
Division of Astronomical Sciences. This report was meant to maximize 
the science recommended by ``New Worlds, New Horizons in Astronomy and 
Astrophysics'', the 2010 National Academies sixth decadal survey in 
astronomy and astrophysics. The recommendations were further endorsed 
by the 2016-2017 annual report of the NSF Astronomy and Astrophysics 
Advisory Committee, and the 2016 National Academies' mid-decadal report 
``New Worlds, New Horizons, A Midterm Assessment.'' As part of these 
recommendations NSF began the process of evaluating its facilities in 
line with these priorities. Regarding the Arecibo and Green Bank 
Observatories specifically:

  <bullet> Arecibo: Beginning February 22, 2018, the University of 
        Central Florida (UCF) began formal transition activities to 
        take on the operations and management of NSF's Arecibo 
        Observatory in Puerto Rico. With this award, UCF will fulfill 
        NSF's preferred alternative for management and operations of 
        the observatory. The university will take over formal 
        management and execute a program of research and education 
        consistent with the objectives and priorities of the scientific 
        community. The university will provide support and technical 
        personnel to manage the observatory, including its research and 
        educational activities. The award duration is expected to run 
        five years, with NSF contributions decreasing over time from 
        the current level of approximately $8 million per year to 
        approximately $2 million per year by the second half of FY 
        2022. This award ensures continued science-focused operations 
        that maintain atmospheric, planetary and astronomical research, 
        including radio observations of astronomical sources, planetary 
        radar observations of solar system and near-Earth objects, and 
        studies of Earth's atmosphere.

  <bullet> Green Bank Observatory (GBO): On November 8, 2017, NSF 
        published the Draft Environmental Impact Statement (DEIS) for 
        the Green Bank Observatory (GBO) in the Federal Register. The 
        DEIS was prepared in compliance with the National Environmental 
        Policy Act of 1969, as amended, to evaluate the potential 
        environmental impacts resulting from proposed operational 
        changes due to funding constraints for the GBO. The agency-
        preferred alternative is Action Alternative A: Collaboration 
        with Interested Parties for Continued Science and Education-
        Focused Operations with Reduced NSF funding. NSF accepted 
        comments for 60 days following the publication of the DEIS (an 
        additional 15 days beyond the normal 45 days were provided 
        because of the holidays). During the comment period, NSF held a 
        public meeting at GBO on November 30, 2017, to receive comments 
        from interested parties and stakeholders. Following the end of 
        the comment period on the DEIS, the agency reviews and 
        considers the public comments and begins preparation of the 
        Final Environmental Impact Statement (FEIS), which NSF hopes to 
        have available in the fall of 2018. The FEIS will identify a 
        preferred alternative. Once the document is prepared, there is 
        a 30-day ``cooling off period'' before the Record of Decision 
        (ROD) is released to the public. The purpose of the cooling off 
        period is to allow the agency to consider its decision. NSF is 
        actively seeking collaborators for GBO. On March 5, 2018, NSF 
        issued a Dear Colleague Letter inviting consultations regarding 
        future continued operations and management of Green Bank 
        Observatory, to alert the community of the opportunity to 
        provide expressions of interest in providing funding support 
        and in management and operation of GBO. A Solicitation would be 
        anticipated during FY 2018.

    Question 2. The National Science Board is among the many who have 
noted our slumping investment in research and development while 
countries in southern and eastern Asia, most notably China, accelerate 
their efforts. The FY18 budget request proposed cutting the NSF by 
eleven percent. What would a cut of that magnitude mean in terms of 
research and grants funded by NSF?
    Answer. NSF was funded at $7.5B in FY 2016 and under the FY 2017 
CR. The FY 2018 request was a reduction of 11.2 percent for a budget of 
$6.65B. However, after the Bipartisan Budget Act of 2018 was signed 
into law, the Administration recommended adding back $819 million to 
the FY 2018 request to provide level funding with FY 2017 enacted 
level. The FY 2019 Budget Request for NSF is also $7.472 billion, the 
same as the FY 2017 Current Plan level. The FY 2019 requested level 
will allow NSF to invest in priority areas like Advancing NSF's Big 
Ideas -bold questions that will drive NSF's long-term research agenda; 
implementing agency reforms centered on accelerating focused, cross-
disciplinary efforts around two of the NSF Big Ideas -The Future of 
Work at the Human-Technology Frontier and Harnessing the Data 
Revolution; and beginning construction on the Antarctic Infrastructure 
Modernization for Science project.

    Question 3. The committee is pleased by NSF's progress in opening 
up new mid-scale project opportunities. As noted in your testimony, NSF 
received 191 responses to its RFI on mid-scale infrastructure. The 
committee is mindful of the tension, especially in a constrained budget 
environment, between funding infrastructure and research. How is NSF 
approaching this challenge of balancing resources? Is NSF exploring 
funding mechanisms other than the research directorates?
    Answer. As noted, NSF received nearly 200 replies to its Request 
for Information on potential mid-scale research infrastructure projects 
in the $20 million to $100 million range. Replies were received from 
areas of science covered by all of NSF's seven directorates. These 
responses amount to a total demand of at least $10 billion for mid-
scale research infrastructure in that cost range. We are currently 
completing analysis of the responses in order to finalize mechanisms to 
support mid-scale research infrastructure in the future, Based on the 
demand evident from the responses, NSF has added $55 million for mid-
scale research infrastructure in its FY 2019 budget request. Separate 
tracks within the Mid-scale program will fund acquisition, design/
development, and implementation. NSF will also conduct strategic 
discussions of the long-term development of mid-scale research 
infrastructure with our Advisory Committees and the National Science 
Board.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Dr. France Cordova
    Science Vacancies in the Administration. The Administration's 
commitment to science has understandably raised concerns because of 
actions it has and has not taken. While I could give you a long list of 
just the policy decisions alone, I wanted to ask about vacancies and 
their hiring freeze policy.
    Question 1. Dr. Cordova, the NSF site's own figures are that your 
agency ``supports an average of about 200,000 various scientific 
personnel around the world.'' What are the detrimental impacts of the 
White House still not having nominated or filled various leadership 
positions within the White House Office of Science and Technology 
Policy (OSTP)?
    Answer. NSF works closely with the White House Office of Science 
and Technology Policy and maintains a very strong working relationship 
with the staff in that office.

    Question 2. What impact, if any, did the questionable hiring freeze 
policy the Administration has employed have on your department, and the 
scientific progress you're making?
    Answer. NSF supports research, innovation, and discovery that 
provides the foundation for economic growth in this country. By 
advancing the frontiers of science and engineering, our Nation can 
develop the knowledge and cutting-edge technologies needed to address 
the challenges we face today and will face in the future. NSF complied 
with the terms of the Administration's hiring freeze, and as an already 
lean organization operationally, we continue to strive to fulfill our 
mission both through the hard work and commitment of the Foundation's 
excellent workforce and the effective use of innovative information 
technologies.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Dr. France Cordova
    Question 1. I authored Section 310 of the AICA bill which focuses 
on how to promote more inclusive STEM education especially in rural and 
tribal communities. As you know that section askes NSF to award grants 
that focus on developing tools to create inclusive STEM education 
environments for underrepresented populations, particularly rural and 
tribal communities. I asked NSF to develop metrics to measure success 
and report on the progress of the program. I see that to date, that 
report has not been completed. Has there been interest in the grant 
program? Have there been grants awarded?
    Answer. As required by the AICA, NSF has been providing this report 
as part of its annual budget submission to Congress. The first report 
was included in the FY 2018 budget submission, and the next was 
included in the FY 2019 budget request.

  <bullet> FY 2018 Report: https://www.nsf.gov/about/budget/fy2018/pdf/
        16_fy2018.pdf

  <bullet> FY 2019 Report: https://www.nsf.gov/about/budget/fy2019/pdf/
        20_fy2019.pdf

    The Computer Science for All: Researcher Practitioner Partnerships 
(CSforAll RPP) program (NSF 17-525) combines professional development 
opportunities for teachers at all grade levels together with research 
studies that at the PreK-8 level will focus on how to integrate 
computer science and computational thinking into their classrooms; and 
at the high school level on how to help teachers teach rigorous 
computer science courses. Importantly, all proposals must address 
groups underrepresented in computing, including women, persons with 
disabilities, African Americans/Blacks, Hispanic Americans, American 
Indians, Alaska natives, Native Hawaiians, Native Pacific Islanders, 
and persons from economically disadvantaged backgrounds.
    The CSforAll: RPP program's first deadline for proposals was 
February 28, 2017. NSF convened merit review panels in April 2017, and 
the program made its first cohort of 34 two-to four-year awards by the 
end of FY 2017. All awards identified at least one underrepresented or 
underserved group, as outlined in the table below.

 Underrepresented or Underserved Group PServed by Backbone Organizations
------------------------------------------------------------------------
                                                                  Groups
                            Category                              Served
------------------------------------------------------------------------
Rural                                                                 12
Low Socio-Economic Status                                              8
Disabilities                                                           4
Pacific Islanders                                                      1
Women/Girls                                                           10
English Language Learners                                              2
African-Americans                                                     10
Native Americans                                                       4
Latino/a                                                              17
------------------------------------------------------------------------

    NSF works to create inclusive STEM education environments for 
underrepresented populations through a variety of additional programs. 
For example, STEM + Computing Partnerships (STEM+ C) addresses the 
integration of computational thinking and computing activities in early 
childhood through high school (preK-12). The program emphasizes 
computing both as a STEM discipline and a discipline integral to the 
practice of all other STEM disciplines. In addition, STEM+C projects 
include strategies to address issues of underrepresentation in STEM and 
computing.
    Inclusion across the Nation of Communities of Learners of 
Underrepresented Discoverers in Engineering and Science (NSF INCLUDES) 
is a comprehensive national initiative designed to enhance U.S. 
leadership in science, technology, engineering and mathematics (STEM) 
discoveries and innovations focused on NSF's commitment to diversity, 
inclusion, and broadening participation in these fields. NSF INCLUDES 
supports efforts to create networked relationships among organizations 
whose goals include developing talent from all sectors of society to 
build the STEM workforce. This initiative seeks to improve 
collaborative efforts aimed at enhancing the preparation, increasing 
the participation, and ensuring the contributions of individuals from 
groups that have traditionally been underrepresented and underserved in 
the STEM enterprise: women, persons with disabilities, African 
Americans/Blacks, Hispanic Americans, American Indians, Alaska Natives, 
Native Hawaiians, Native Pacific Islanders, and persons from 
economically disadvantaged backgrounds. Significant advancement in the 
inclusion of these groups will result in a new generation of STEM 
talent and leadership to secure our Nation's future and long-term 
economic competitiveness.

    Question 2. Are there other things that NSF is doing to address the 
under inclusion problem, particularly for rural and tribal communities?
    Answer. NSF's Tribal Colleges and Universities Program (TCUP) 
promotes improvement and continued quality in undergraduate science, 
technology, engineering and mathematics (STEM) instructional and 
outreach programs at Tribal Colleges and Universities, Alaska Native-
serving institutions and Native Hawaiian-serving institutions.
    TCUP allows proposers flexibility and creativity in the design of 
efforts to improve undergraduate STEM education. Proposed activities 
should be the result of a careful analysis of institutional needs, 
address institutional and NSF goals, and have the potential to result 
in significant and sustainable improvement of STEM programs. TCUP 
emphasizes the expansion of course and degree offerings; development of 
undergraduate research opportunities, faculty skills, and STEM-
education technologies; and the integration of community goals and 
traditional knowledge with mainstream STEM education and research. 
Partnerships among institutions of higher education and collaborations 
with K-12 schools, tribal government units or other relevant groups are 
encouraged.
    TCUP support is available through three main foci: (1) the 
Transformative Capacity Building focus includes Instructional Capacity 
Excellence in TCUP Institutions awards, Targeted STEM Infusion 
Projects, and Preparing for TCUP Implementation awards; (2) the 
Multiple Institution Collaborations focus includes Partnerships for 
Geoscience Education, Partnerships for Documentary Linguistics 
Education, and Pre-Engineering Education Collaboratives; and (3) the 
Individual Investigator Studies focus offers Small Grants for Research. 
Typical project goals and approaches include course, degree, and 
curriculum development, reform and enhancement; faculty professional 
development; the integration of active learning strategies into the 
STEM curriculum; disciplinary and education research; community 
outreach and engagement; student support; internships and other 
educational enrichment activities; student recruitment, retention and 
placement; infusion of technology to enhance STEM instruction; 
collaborations with other educational institutions, business, or other 
community partners; and activities that enhance the knowledge and 
skills of technical support personnel.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                           Dr. France Cordova
    Expanding Digital Literacy. Expanding opportunities for all 
students interested in STEM is a crucial part of ensuring a healthy 
pipeline of workers who are equipped with the skills needed for the 
jobs of tomorrow. One Minnesota company, Best Buy, is helping to bridge 
the opportunity gap by providing underserved youth access to new 
technology. Best Buy's Teen Tech Centers are free, year-round, after-
school programs where teens can get hands-on experience exploring 
programing and computer science.
    Question. Dr. Cordova, what is NSF doing to partner with outside 
groups working to expand digital literacy and computer skills?
    Answer. As part of the Computer Science (CS) for All initiative, 
NSF is investing in activities to advance the effective teaching and 
learning of computer science and computational thinking in K-12 
education.
    NSF's efforts have been leveraged by many partnering Federal 
agencies and private organizations that are working to bring CS 
education to schools across the country. Within the Federal Government, 
NSF has partnered with the Office of Science and Technology Policy, the 
Department of Education, and the Department of Defense. NSF has also 
worked closely with the Corporation for National and Community Service, 
Code.org, the College Board, Teach for America, Project Lead The Way, 
the National Math and Science Initiative, and 100Kin10.
    NSF has also funded a CSforAll Consortium, to provide a central 
resource, and to serve as a platform for connecting diverse 
stakeholders, providing support to new and developing initiatives, 
tracking and sharing progress, and communicating about the work to 
local and national audiences. Information on the CSforAll Consortium 
can be found at: https://www.csforall.org/
    In addition, NSF's Advanced Technological Education (ATE) program 
focuses on the education of technicians for the high-technology fields 
that drive the Nation's economy. The program involves partnerships 
between academic institutions and industry to promote improvement in 
the education of science and engineering technicians at the 
undergraduate and secondary school levels. The vast majority of 
projects are situated at community colleges, giving many students 
underrepresented in STEM access to career opportunities.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                           Dr. France Cordova
    Funding Cuts. Last May, President Trump released a proposed budget 
that would cut science programs across the Federal Government in FY 
2018. Specifically, the proposal would cut funding for the National 
Science Foundation by $776 million, or about 11 percent. As you know, 
NSF provides $7.5 billion per year in funds for vital research efforts. 
This is about 25 percent of Federal support to academic institutions 
for basic research. This funding supports projects that are integral to 
our country's health, safety, security, and economic competitiveness. 
Colleges and institutions throughout Connecticut have a long history of 
successfully securing funds from the National Science Foundation and 
putting them to work on important, innovative projects. These cuts 
specifically target your foundation.
    Question 1. Will these cuts set your organization back and harm the 
scientific community?
    Answer. NSF was funded at $7.5B in FY 2016 and under the FY 2017 
CR. The FY 2018 request was a reduction of 11.2 percent for a budget of 
$6.65B. However, after the Bipartisan Budget Act of 2018 was signed 
into law, the Administration recommended adding back $819 million to 
the FY 2018 request to provide level funding with FY 2017 enacted 
level. The FY 2019 Budget Request for NSF is also $7.472 billion, the 
same as the FY 2017 Current Plan level. The FY 2019 requested level 
will allow NSF to invest in priority areas like Advancing NSF's Big 
Ideas -bold questions that will drive NSF's long-term research agenda; 
implementing agency reforms centered on accelerating focused, cross-
disciplinary efforts around two of the NSF Big Ideas -The Future of 
Work at the Human-Technology Frontier and Harnessing the Data 
Revolution; and beginning construction on the Antarctic Infrastructure 
Modernization for Science project.

    Question 2. Do you join me in my concern about Trump's budget cuts?
    Answer. The FY 2019 Budget Request for NSF is $7.472 billion, the 
same as the FY 2017 Current Plan level. NSF is committed to supporting 
ground-breaking research, world-leading facilities, and a skilled and 
innovative workforce across all fields of science and engineering. NSF 
is vital to our Nation because we invest in the fundamental research 
and the talented people who make the discoveries that transform our 
future. Those discoveries are a primary driver of the U.S. economy, 
enhance our Nation's security, and give the country the competitive 
edge to remain a global leader. Under the President's FY 2019 budget 
request, NSF will continue its support for groundbreaking research in 
areas including computer science, biology, engineering, geoscience, 
mathematics, the physical sciences, and the social sciences.

    Question 3. How do you believe these cuts would affect the United 
States' global competitiveness?
    Answer. As the only Federal agency that invests in fundamental, 
basic research across all fields of science and engineering, NSF has 
spent nearly seven decades laying the foundation upon which the future 
is built. Basic research supported by NSF allowed for the emergence of 
fields of research such as data science, encryption, gene editing, 
nanotechnology, artificial intelligence and autonomous systems. Our 
support will foster new growth in these fields vital to the economy and 
security. NSF-supported research has added hundreds of billions of 
dollars to the economy and led to advances that benefit all Americans, 
from Doppler radar to MRI scans and the computer architecture that led 
to the internet. The President's FY 2019 budget request will enable us 
to continue that work.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                             All Witnesses
    Question. I am concerned about the increased political interference 
in scientific research by this Administration. Can each of you identify 
the specific actions you are taking to protect scientists, both agency 
scientists and grant recipient scientists?
    Answer. The very first section of the American Innovation and 
Competitiveness Act (AICA), affirms the importance of our merit review 
process. Through this process, the National Science Foundation ensures 
that proposals submitted are reviewed in a fair, competitive, 
transparent, and in-depth manner. This is a non-partisan process that 
has stood the test of time and been emulated all over the world.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Dr. France Cordova
    Diversity in STEM. This Committee recently had a hearing on 
Artificial Intelligence. During the hearing, we discussed the need for 
diversity among the individuals creating AI software and programs.
    Question 1. Dr. Cordova, your testimony highlights the effort of 
the NSF INCLUDES program, and underscores the importance of promoting 
diversity within STEM education and careers. What are other actions or 
initiatives you are undertaking to increase diversity within the ranks 
of NSF?
    Answer. The NSF INCLUDES program is a comprehensive national 
initiative designed to enhance U.S. leadership in STEM discoveries and 
innovations by focusing on diversity, inclusion, and broadening 
participation in these fields at scale. The vision of NSF INCLUDES is 
to catalyze the STEM enterprise to collaborative work for inclusive 
change, which will result in a STEM workforce that reflects the 
diversity of the Nation.
    To achieve national impact, NSF INCLUDES shifts away from single-
project efforts, and recognizes that complex problems are best 
addressed through collaborative approaches. NSF INCLUDES has already 
funded nearly 70 Design and Development Launch Pilotss across the 
country that range across the PreK-graduate spectrum, involve community 
partners, and will provide new bold models for broadening 
participation.
    NSF has taken a variety of additional approaches to broaden 
participation across its many programs. NSF's broadening participation 
investments range from capacity building, research centers, 
partnerships, and alliances to the use of co-funding or supplements to 
existing awards in the core research programs.
    NSF's merit review criteria of intellectual merit and broader 
impacts incorporates consideration of broadening participation and the 
science of broadening participation. Furthermore, some program 
announcements and solicitations specifically target or emphasize 
opportunities to broaden participation within the STEM enterprise.
    NSF's broadening participation portfolio, presented below, is 
divided into three categories: (1) programs that are primarily focused 
on broadening participation, (2) programs that have broadening 
participation as one of several emphases, and (3) Dear Colleague 
Letters expressing interest in specific aspects of broadening 
participation.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
                            Focused Programs
------------------------------------------------------------------------
  Programs with an explicit broadening participation program goal. The
    majority of each award's budget goes to broadening participation
          activities, and could involve research on the topic.
------------------------------------------------------------------------
PROGRAM NAME                      Publication No.     Directorate
------------------------------------------------------------------------
Inclusion across the Nation of    17-522              All
 Communities of Learners of
 Underrepresented Discoverers in
 Engineering and Science (NSF
 INCLUDES)
------------------------------------------------------------------------
ADVANCE: Increasing the           16-594              All
 Participation and Advancement
 of Women in Academic Science
 and Engineering Careers
------------------------------------------------------------------------
Broadening Participation in       16-7680             ENG
 Engineering
------------------------------------------------------------------------
Centers of Research Excellence    16-525              EHR, ENG
 in Science and Technology
 (CREST) and HBCU Research
 Infrastructure for Science and
 Engineering (RISE)
------------------------------------------------------------------------
Disability and Rehabilitation     17-5342             ENG
 Engineering
------------------------------------------------------------------------
EPSCoR Research Infrastructure    13-553              OIA
 Improvement Program Track-3:
 Building Diverse Communities
------------------------------------------------------------------------
Experimental Program to           12-588              All
 Stimulate Competitive Research:
 Workshop Opportunities (EPS-WO)
------------------------------------------------------------------------
Historically Black Colleges and   16-538              EHR
 Universities Undergraduate
 Program
------------------------------------------------------------------------
Louis Stokes Alliances for        15-594              EHR
 Minority Participation
------------------------------------------------------------------------
NSF Scholarships in Science,      17-527              EHR
 Technology, Engineering, and
 Mathematics
------------------------------------------------------------------------
Partnerships for Research and     14-606              MPS
 Education in Materials
------------------------------------------------------------------------
Partnerships in Astronomy &       13-566              MPS
 Astrophysics Research and
 Education
------------------------------------------------------------------------
Postdoctoral Research             15-501              BIO
 Fellowships in Biology
------------------------------------------------------------------------
Presidential Awards for           16-534              EHR
 Excellence in Science,
 Mathematics and Engineering
 Mentoring (PAESMEM)
------------------------------------------------------------------------
SBE Postdoctoral Research         16-590              SBE
 Fellowships
------------------------------------------------------------------------
Tribal Colleges and Universities  16-531              EHR, ENG, GEO, SBE
 Program
------------------------------------------------------------------------


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                            Emphasis Programs
------------------------------------------------------------------------
Programs with an additional review criterion on broadening
 participation. All awards have broadening participation components
 (e.g., a project diversity plan) along with components not necessarily
 related to broadening participation.
------------------------------------------------------------------------
PROGRAM NAME                      Publication No.     Directorate
------------------------------------------------------------------------
Advancing Informal STEM Learning  15-593              EHR
------------------------------------------------------------------------
Computer Science for All          17-525              CISE, EHR
------------------------------------------------------------------------
EMERGING FRONTIERS IN RESEARCH    16-612              CISE, ENG, MPS
 AND INNOVATION 2017
------------------------------------------------------------------------
Gen-3 Engineering Research        15-589              ENG
 Centers
------------------------------------------------------------------------
Graduate Research Fellowship      16-588              All
 Program
------------------------------------------------------------------------
Innovative Technology             15-599              EHR
 Experiences for Students and
 Teachers
------------------------------------------------------------------------
International Research            12-551              All
 Experiences for Students
------------------------------------------------------------------------
Major Research Instrumentation    15-504              All
 Program:
------------------------------------------------------------------------
Materials Research Science and    16-545              MPS
 Engineering Centers
------------------------------------------------------------------------
Research Experiences for          13-542              All
 Undergraduates
------------------------------------------------------------------------
Science and Technology Centers:   14-600              All
 Integrative Partnerships
------------------------------------------------------------------------
Science of Learning               16-004Y             SBE
------------------------------------------------------------------------
                         Dear Colleague Letters
------------------------------------------------------------------------
PROGRAM NAME                      Publication No.     Directorate
------------------------------------------------------------------------
Historically Black Colleges and   DCL 17-138          BIO, CISE, EHR,
 Universities Excellence in                            ENG, GEO, MPS,
 Research Program                                      SBE, OIA
------------------------------------------------------------------------
Life STEM                         DCL 16-143          EHR
------------------------------------------------------------------------
Strengthening Transfer of         DCL 16-094          EHR
 Students from Two-year Hispanic-
 serving Institutions to Four-
 year STEM Programs
------------------------------------------------------------------------
Strengthening Research Capacity   DCL 16-080          All
 at Historically Black Colleges
 and Universities
------------------------------------------------------------------------
Fundamental Research to Improve   DCL 16-064          EHR
 STEM Teaching and Learning, and
 Workforce Development for
 Persons with Disabilities
 within the EHR Core Research
 Program
------------------------------------------------------------------------
Stimulating Research on           DCL 15-078          All
 Effective Strategies in
 Undergraduate STEM Education at
 Two-Year Hispanic Serving
 Institutions
------------------------------------------------------------------------
Stimulating Research Related to   DCL 15-066          SBE, EHR
 the Science of Broadening
 Participation
------------------------------------------------------------------------
Effort to Broaden the             DCL 15-063          All
 Participation of Students in
 Two-Year Hispanic Serving
 Institutions in Science,
 Technology, Education, and
 Mathematics (STEM)
------------------------------------------------------------------------
Veterans Research Supplement      DCL 14-124          ENG
 Program (VRS)
------------------------------------------------------------------------
Research Assistantships for High  DCL 14-073          ENG
 School Students (RAHSS):
 Supplemental Funding to Current
 SBIR/STTR Phase II Awards to
 Broaden Participation in
 Science and Engineering
------------------------------------------------------------------------
Career-Life Balance (CLB)         DCL 13-109          All
 Supplemental Funding
 Opportunities in Support of
 Postdoctoral Investigators
 Funded by NSF Awards
------------------------------------------------------------------------
Career-Life Balance (CLB)--       DCL 13-099          All
 Graduate Research Fellowship
 Program (GRFP) Supplemental
 Funding Requests
------------------------------------------------------------------------
Balancing the Scale: NSF's        N/A                 All
 Career-Life Balance (CLB)
 Initiative
------------------------------------------------------------------------


------------------------------------------------------------------------
 
------------------------------------------------------------------------
Career-Life Balance (CLB)         DCL 13-075          All
 Initiative
------------------------------------------------------------------------
MPS Alliances for Graduate        DCL 13-071          MPS
 Education and the
 Professoriate--Graduate
 Research Supplements
------------------------------------------------------------------------
Announcement of Efforts to        DCL 12-081          BIO, CISE, EHR,
 Increase Hispanic Participation                       ENG
 in STEM Fields
------------------------------------------------------------------------
Research Assistantships for High  DCL 12-078          BIO
 School Students RAHSS)--BIO
 supplements
------------------------------------------------------------------------
Research Experience for Teachers  DCL 12-075          BIO
 (RET): Funding Opportunity in
 the Biological Sciences
------------------------------------------------------------------------
Engineering Research Experiences  DCL 12-074          ENG
 for Veterans
------------------------------------------------------------------------
Research Experiences for          DCL 12-073          ENG
 Veterans/Teachers
------------------------------------------------------------------------
Supplemental Opportunity for      DCL 12-069          ENG, EHR
 Small Business Innovation
 Research and Small Business
 Innovation Research/Small
 Business Technology Transfer
 for CREST/HBCU-RISE
 Collaborations
------------------------------------------------------------------------
SBIR/STTR Supplemental Funding    DCL 08-029          ENG, EHR
 for Community College Research
 Teams
------------------------------------------------------------------------
Research Assistantships for High  DCL 06-003          ENG
 School Students (RAHSS)--SBIR/
 STTR Phase II Supplements
------------------------------------------------------------------------

    NSF has also released a solicitation entitled ``Computer Science 
for All: Researcher Practitioner Partnerships'' (CS for All: RPP) to 
provide high school teachers with what they need to teach rigorous 
computer science courses, and K-8 teachers with needed instructional 
materials and preparation to integrate computer science and 
computational thinking into their courses. All proposals must address 
groups underrepresented in computing, including women, persons with 
disabilities, African Americans/Blacks, Hispanic Americans, American 
Indians, Alaska natives, Native Hawaiians, Native Pacific Islanders, 
and persons from economically disadvantaged backgrounds.

    Question 2. NSF's Innovation Corps program was expanded to address 
some of the technology transfer challenges. Arrowhead Center at New 
Mexico State University and Innovation Academy at the University of New 
Mexico were both awarded grants from this program and have helped 
entrepreneurs commercialize their innovations. How can we build on the 
success of the I-Corps program and continue to help the research 
community with business development and entrepreneurship?
    Answer. Since the start of the I-Corps<SUP>TM </SUP>Program in 
2011, NSF has funded 8 I-Corps<SUP>TM </SUP>Nodes, 87 I-
Corps<SUP>TM </SUP>Sites, and more than 1,100 I-
Corps<SUP>TM </SUP>Teams. The I-Corps<SUP>TM </SUP>Teams have come from 
230 universities and have created 440 startups to date with the 
startups located in 46 states plus Puerto Rico.
    The Nodes and Sites form a National Innovation Network containing 
more than 100 universities that are working collaboratively to build, 
utilize, sustain, and expand the national innovation ecosystem.
    To address Section 601 of the AICA, NSF currently has two pilot 
programs underway. The first pilot is focused on the expansion of I-
Corps, and the second pilot is focused on developing follow-on grants.

  <bullet> Expansion of I-Corps: NSF is funding eight I-
        Corps<SUP>TM </SUP>sites to increase participation and promote 
        inclusion of underrepresented populations in entrepreneurship. 
        These sites will pilot novel approaches and partnerships to 
        engage differently-abled individuals, first-generation college 
        students, racial and ethnic minorities and women, as well as 
        Minority-Serving Institutions.

  <bullet> Follow-on grants: Since 2017 the National Science Foundation 
        awarded seven Innovation Corps (I-Corps<SUP>TM</SUP>) Nodes 
        with $350,000 to $400,000 each in supplemental funding to 
        launch pilot Phase Zero I-Corps<SUP>TM </SUP>programs. Each 
        Node will use the funding to support up to ten teams through 
        the canonical I-Corps<SUP>TM </SUP>training program, recruit 
        new teams, create additional entrepreneurship trainings, and 
        help startups prepare Small Business Innovation Research (SBIR) 
        proposals. Unlike the typical I-Corps<SUP>TM </SUP>program, 
        which requires a recent NSF lineage and an academic team 
        member, the technology from Phase Zero I-
        Corps<SUP>TM </SUP>teams may come from any source, and Phase 
        Zero team members do not need a university affiliation. These 
        Phase Zero grants help expand participation in the I-
        Corps<SUP>TM </SUP>Program and broaden the National Innovation 
        Network.

    NSF is funding eight I-Corps<SUP>TM </SUP>sites to increase 
participation and promote inclusion of underrepresented populations in 
entrepreneurship. These sites will pilot novel approaches and 
partnerships to engage differently-abled individuals, first-generation 
college students, racial and ethnic minorities and women, as well as 
Minority-Serving Institutions.

    Question 3. The NSF has a significant role in aiding technology 
transfer from government sources to the private sector. This is an 
important program for the National Laboratories in New Mexico. 
Sometimes, Federal agencies may not be as successful with technology 
transfer. Can you speak of ways that NSF can partner with other 
agencies or programs to increase their success?
    Answer. Existing NSF innovation research alliances include 
consortia such as Engineering Research Centers (ERC), Industry 
University Cooperative Research Centers (IUCRC), PFI, Science and 
Technology Centers (STC), and Materials Research Science and 
Engineering Centers (MRSEC). They are also exemplified by the Grant 
Opportunities for Academic Liaison with Industry (GOALI) program, and 
the SBIR/STTR program. Many of these programs have been part of the NSF 
investment portfolio for decades. For example, SBIR is a government-
wide program initiated at the NSF in 1976. These programs complement 
our other significant investments in fundamental scientific and 
engineering research by offering multiple pathways for moving discovery 
to innovative technologies.
    NSF I-Corps<SUP>TM </SUP>has 9 MOUs with other Federal Agencies. I-
Corps<SUP>TM </SUP>programs have been adopted and adapted in 
partnerships with a growing number of Federal agencies, including the 
National Institutes of Health (NIH), Department of Energy (DOE), 
Department of Defense (DOD), National Security Agency (NSA), United 
States Department of Agriculture (USDA), Department of Homeland 
Security (DHS), Advanced Research Projects Agency--Energy (ARPA-E), 
National Aeronautics and Space Administration (NASA), and the Small 
Business Administration (SBA). A MOU between NSF and the Department of 
Energy established Energy I-Corps, a program specifically created to 
accelerate the commercialization of technologies from DOE national 
laboratories.

    Question 4. The American Innovation and Competitiveness Act (AICA) 
included provisions to provide grants to Hispanic-Serving institutions, 
such as the University of New Mexico. Can you update the Committee on 
the implementation of expanding grants to these institutions? And, what 
else is NSF doing in its' commitment to diversity in STEM fields?
    Answer. To enhance the quality of undergraduate STEM education at 
Hispanic-serving institutions (HSIs), NSF has established the Improving 
Undergraduate STEM Education: Hispanic-Serving Institutions (HSI 
Program) (NSF 18-524).
    In designing the HSI Program, NSF sought community input in a 
variety of ways that included releasing a Dear Colleague Letter, 
awarding conference grants to seek stakeholder input, establishing and 
holding a meeting of the Building Capacity at Hispanic-Serving 
Institutions Subcommittee (HSI Subcommittee) of the Education and Human 
Resources Advisory Committee, and conducting three virtual listening 
sessions that invited commentary from members of the HSI community.
    NSF released a program solicitation (NSF 18-524) to guide the 
initial focus of the HSI Program. NSF will continue to gather community 
input from funded HSI conferences to inform future components of, or 
modifications to, the HSI Program.
    NSF issued the first HSI Program awards for seven conferences in FY 
2018. The awarded conference projects, their principal investigators 
and their institutions are listed below:

  <bullet> PROMISE: Providing Resources and Opportunities for 
        Minorities in STEM Education, Nora Garza, Laredo Community 
        College.

  <bullet> Catalyzing Progress in Undergraduate STEM Education with 
        Insights from Midwestern HSIs, Laura Sanders, Northeastern 
        Illinois University.

  <bullet> Stakeholder Perspectives on Challenges and Opportunities for 
        Improving Undergraduate STEM Education at HSIs, William Kitch, 
        Texas A&M Engineering Experiment Station.

  <bullet> Dissecting the STEM Education Ecosystem in Hispanic Serving 
        Institutions (HSIs): Regional Insights from Southern 
        California, Yusheng Liu, California State University, 
        Fullerton.

  <bullet> Co-Designing an Engineering Education Research Agenda, 
        Meagan Kendall, University of Texas at El Paso; Alexandra 
        Strong, Franklin W. Olin College; Ines Basalo, University of 
        Miami.

  <bullet> Urbano-Increasing Access and Success in Urban Stem Programs, 
        Jorge Gonzalez, The City College of New York.

  <bullet> Accelerating the Impact of HSI STEM Education and Research 
        on Innovation Ecosystems, Rodolfo J. Romanach, University of 
        Puerto Rico Mayaguez.

    In FY 2017, NSF made four awards for conferences aimed at informing 
the HSI program's design. Those four awards, their principal 
investigators and their institutions are listed below:

  <bullet> Hispanic-focused STEM Ideas for Inspiration and Innovation, 
        Meline Kevorkian, Nova Southeastern University.

  <bullet> Transforming STEM Education in Hispanic Serving 
        Institutions--Regional Insights from the Southwest, Guadalupe 
        Lozano, University of Arizona.

  <bullet> Understanding and Improving Readiness and Student 
        Transitions, Andrew Hamilton, University of Houston.

  <bullet> Pathways for Hispanic Students in STEM, Michael Dennin, 
        University of California-Irvine.

    The HSI program will accept proposals in two tracks: (1) Building 
Capacity and (2) HSIs New to NSF. The Building Capacity track funds 
projects from $500K to $1.5M for up to 5 years and is open to all 
eligible institutions. The HSIs New to NSF track funds projects up to 
$250K for up to 3 years and is open only to eligible institutions that 
have never received NSF funding, or that have not received NSF funding 
in the five years preceding the proposal deadline.
    The HSI Program will also fund one Resource Hub project up to $3M 
for up to five years. The Resource Hub will support the needs of HSIs 
with little or no prior NSF funding, such as assistance with proposal 
writing and financial compliance. In addition, the Resource Hub will 
facilitate networking and professional development that build and 
strengthen collaborations among HSIs.

    Question 5. There was a provision that I backed that supported the 
need to coordinate research and efforts on sustainable chemistry. Has 
NSF undertaken any activity to further the mission of the Sustainable 
Chemistry Research Program that had been originally authorized in the 
National Science Foundation Authorization Act of 2010?
    Answer. NSF continues to broadly define sustainable chemistry as 
efforts that seek to improve the efficiency with which natural 
resources are used to meet human needs for chemical products and 
services. Sustainable chemistry encompasses the design, manufacture and 
use of efficient, effective, safe and more environmentally benign 
chemical products and processes; stimulates innovation across all 
sectors to design and discover new chemicals, production processes, and 
product stewardship practices; and, increases performance and value 
while meeting the goals of protecting and enhancing human health and 
the environment.
    In response to the enactment of the America COMPETES Authorization 
Act of 2010, NSF established the Science, Engineering and Education for 
Sustainability NSF-Wide Investment (SEES) to advance science, 
engineering, and education to inform the societal actions needed for 
environmental and economic sustainability and sustainable human well-
being. As part of the SEES portfolio of activities, the Sustainable 
Chemistry, Engineering, and Materials (SusChEM) Initiative began in 
2013. The SusChEM initiative addressed the interrelated challenges of 
sustainable supply, engineering, production, and use of chemicals and 
materials. Since FY 2013, the SusChEM program has funded over 349 
grants totaling over $134 million in the Divisions of Chemistry (MPS), 
Materials Research (MPS), Earth Sciences (GEO), Civil, Mechanical and 
Manufacturing Innovation (ENG), and Chemical, Bioengineering, 
Environmental and Transport Systems (ENG). Each SusChEM-participating 
division continues to mainstream sustainable chemistry, materials and 
engineering into their core research programs.
    The NSF Division of Chemistry has funded a total of ten Centers for 
Chemical Innovation (CCIs) since the inception of the CCI program. 
These Phase II centers are major investments of up to $4 million per 
year for up to 10 years, supporting large teams of researchers working 
on frontier questions. While sustainability in not a required topic for 
the CCIs, five of these ten total centers have focused on challenges 
related to sustainable chemistry including, for example, the Center for 
Selective C-H Functionalization and the Center for Sustainable 
Polymers. The collaborative and interdisciplinary environment within 
the CCIs provides valuable training for developing scientists in 
SusChEM fields.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                           Dr. France Cordova
    The Opioid Crisis. My home state of New Hampshire is being heavily 
impacted by the fentanyl, heroin, and opioid crisis. We truly need an 
all-hands-on-deck approach to tackle this epidemic.
    Question. What kind of work is the National Science Foundation 
doing that might help address the opioid epidemic?
    Answer. In October, the Administration officially declared the 
opioid crisis a national public health emergency and signed a 
Presidential Memorandum outlining the efforts the Federal Government 
would undertake to address the crisis.
    As part of that important work, OSTP initiated an effort to 
coordinate health-focused Federal Government research and development 
activities related to the opioid crisis. NSF has been included in this 
effort, which will connect R&D efforts across the Executive Branch and 
link them with private sector and intergovernmental capabilities and 
needs.
    NSF has a long history of supporting interdisciplinary basic 
research that spans Biological Sciences, Social, Behavioral and 
Economic Sciences, Mathematical and Physical Sciences, Engineering, 
Computer Science, and Education. So, the Foundation is in the excellent 
position of being able to leverage this culture of convergence and join 
our colleagues at mission-driven agencies to contribute to Combating 
the Opioid Crisis.
    We are living in a time of remarkable advances in a range of 
powerful technologies applied to measure, interrogate, and repair brain 
function and NSF has supported many critical studies. Advances have 
resulted in quantitative measurements of protein functions and neural 
signaling, experience-dependent and epigenetic regulation of cellular 
functions, and neural circuits--to name just a few examples. New 
empirical methods and new datasets used by labor and health economists 
could be used to assess long-term developmental outcomes. And studies 
of both legal and illegal markets for opioids will help us understand 
how various policy alternatives can restrict access to illicit drugs. 
Quantitative-based analysis of these data is becoming increasingly 
important to understand the causes, pathways, diagnosis, prognosis, and 
treatment of addiction.
    Biologists, psychologists, and clinicians commonly lack the 
extensive skills in math, physics, computer science, and chemistry that 
are required for the sophisticated levels of analysis that are needed 
to extract useful information from these large datasets. So, NSF 
programs such as Integrative Approaches to Neural and Cognitive Systems 
and Next Generation Networks for Neuroscience bring together 
mathematicians, physicists, computer scientists, and engineers with 
strong backgrounds in biological research with psychologists and 
neuroscientists--groups of scientists whose research fields do not 
traditionally intersect. The goal of these programs is to catalyze 
understanding of the brain at the convergence of quantitative, 
biological, and behavioral research.
    These types of activities are also strengthened by inter-agency 
partnerships. For example, in partnership with the NIH and several 
international funding agencies, multiple NSF Directorates support 
collaborative research. NSF's long-standing support of chemistry, 
bioengineering, nanotechnology, microfabrication, and materials 
research pave the way for the development of designer drugs that can 
target pain receptors without engaging the signaling pathways that 
result in the development of addiction.
    These existing NSF activities serve well to help combat the opioid 
crisis through: [1] catalyzing new scientific breakthroughs, [2] 
unleashing the power of data, and [3] accelerating the delivery of new 
therapeutics to patients.
    NSF's mission is to be pioneering and exploratory. Unpacking the 
complexity of the opioid crisis will require convergence of research 
across behavioral sciences, social sciences, biology, computer science, 
mathematics, the physical sciences, and engineering. NSF is uniquely 
positioned to support cutting edge research in this culture of 
convergence.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Dr. Walter Copan
    Question 1. In 2002, Congress passed the Help America Vote Act, 
partially in response to issues in my state during the 2000 
presidential election. Under that act, NIST is charged with conducting 
research to ensure security in voting systems. What are the biggest 
threats to the security of our voting system? What protocols should be 
improved or implemented in voting systems?
    Answer. To prevent large scale electronic attacks on the Nation's 
voting systems and to prevent errors which may be due to aging voting 
equipment and infrastructure, NIST looks deeply at technical issues and 
vulnerabilities, risk profiles, and the potential impacts on the 
integrity and performance of voting systems and their associated 
processes. In voting systems there are many potential threat vectors, 
vulnerabilities, and associated impacts that vary from state to state 
based on technologies used, architectures, policies, and other 
requirements. Ensuring that the entities that run elections can 
understand these risks and make informed risk-based decisions with the 
resources they have can help with this wide assortment of issues. NIST 
helped develop the Voluntary Voting System Guidelines (VVSG), which are 
a set of requirements that voting system hardware and software must 
meet to receive an Election Assistance Commission (EAC) certification, 
as one tool that states can use to help manage their risks. The most 
recent draft of these standards, VVSG 2.0, was proposed to the EAC by 
the Technical Guidelines Development Committee (TGDC) on September 12, 
2017. States may also tailor the voluntary NIST Framework for Improving 
Critical Infrastructure Cybersecurity (Cybersecurity Framework) to 
better understand, manage, and reduce cybersecurity risk in the context 
of voting system processes.

    Question 2. NIST's talented workforce is a key asset for the 
agency. What tools does NIST have to support and retain their research 
staff?
    Answer. NIST is committed to furthering the Administration's 
science and technology efforts to advance technological development and 
conduct research and development to ensure national security, grow the 
economy, and create well-paying jobs to improve the lives of all 
Americans. NIST's scientific and technical workforce is a critical tool 
in accomplishing these goals. NIST uses various tools to support, 
maintain, and recruit workforce talent, including providing an 
environment conducive to scientific innovation among staff, recognizing 
staff achievements, offering promotion and leadership opportunities and 
developmental assignment opportunities, and using authorized 
competitive compensation systems and retention allowances.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Dr. Walter Copan
    Voting Security. As the Ranking Member on the Rules Committee, I 
introduced the Secure Elections Act with Senators Lankford, Harris and 
Graham, to upgrade our election equipment and protect against cyber-
attacks. The Department of Homeland Security recently confirmed that 
hackers targeted 21 states' election systems in the run-up to the 2016 
election. As we prepare for 2018 and beyond, we must ensure that our 
election systems are secure. The National Institute of Standards and 
Technology (NIST), worked with the Election Assistance Commission (EAC) 
to develop voting system guidelines and the American Innovation and 
Competitiveness Act authorized research to develop standards for voting 
security.
    Question 1. You have worked closely with the EAC on cybersecurity, 
do you agree that states need more information and resources when it 
comes to updating our election equipment and protecting against future 
cyberattacks?
    Answer. Each state has its own set of voting concerns based on 
choices of technologies and architectures, implemented policies, and 
the resources available. While additional cybersecurity guidance to the 
states may be useful, it is important that each election jurisdiction 
be allowed and encouraged to fit the guidance to its own local needs. 
The Voluntary Voting System Guidelines (VVSG) standard represents an 
important toolkit that NIST has made available to states via the 
Election Assistance Commission (EAC) to assist each state manage its 
cybersecurity risk. In addition, the EAC, the Department of Homeland 
Security (DHS), non-government organizations, and others are working to 
provide further election assistance.

    Question 2. What steps is NIST taking to help state and local 
governments improve their cybersecurity in advance of the elections?
    Answer. Strengthening cybersecurity is a top priority for the 
Administration and the Department of Commerce. As the lead agency for 
cybersecurity in the Department, NIST is actively working to provide 
industry, government, and the public with the tools and best practices 
to strengthen cybersecurity capabilities. With respect to cybersecurity 
around voting, NIST chairs and manages the Technical Guidelines 
Development Committee (TGDC) as part of its voting systems 
responsibilities. In September 2017, the TGDC proposed to the EAC the 
most recent iteration of the Voluntary Voting System Guidelines (VVSG) 
standard, which is a set of requirements that voting system hardware 
and software must meet to receive an EAC certification. VVSG 2.0 
consists of a high-level set of principles accompanied by technical 
requirements for how systems can meet the new guidelines. To obtain 
feedback for the development of the VVSG on a continuous basis, NIST 
leads a set of public working groups. One of the technical groups 
focuses on voting system security. NIST security research is 
encapsulated in the principles, guidelines, and requirements that are 
discussed and revised through bi-weekly teleconferences with the 
cybersecurity working group, which consists of 121 experts across the 
Nation. NIST also works to accredit independent laboratories that will 
validate voting systems to ensure that the voting systems comply with 
evolving guidelines and requirements.
    NIST participates in several efforts led by the EAC, DHS, and non-
government entities, providing technical advice on voting system 
security, including the Election Infrastructure Subsector (EIS) 
Government Coordinating Council (GCC). The EIS GCC enables the Federal 
Government to share information and collaborate with state, local and 
tribal governments on best practices to mitigate and counter threats to 
election infrastructure.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Dr. Walter Copan
    Staffing Vacancies. Over a year after President Trump took office, 
the ranks of his government are still lacking in science and technology 
experts. As I understand, the President still has no top science 
advisor. Nor has he tapped a chief technology officer. In some cases, 
Trump is relying on holdovers from the administrations of his 
predecessors. In others, the president left key jobs unfilled. When 
President Trump has submitted nominees to fill some of these positions, 
they have often been highly unqualified or riddled with deep conflicts 
of interest--making it impossible for the candidates to receive the 
support needed to be confirmed.
    Question 1. Are you concerned by the fact that many of the top 
science and technology posts in the Federal Government are still 
lacking leaders and in many cases nominees?
    Answer. No. Since the President's inauguration, the Office of 
Science and Technology Policy has built a team of over 50 staff members 
to advise the President and advance his science and technology agenda. 
Additionally, on August 1, 2018, the President nominated the University 
of Oklahoma Vice President Kelvin Droegemeier to be the Director of the 
Office of Science and Technology Policy. The Senate Committee on 
Commerce, Science, and Transportation held the confirmation for Dr. 
Droegemeier on August 23, 2018. Collectively, the OSTP staff is working 
on a robust agenda that touches a wide range of issues including 
advanced manufacturing, artificial intelligence, autonomous vehicles, 
biotechnology, quantum information science, cybersecurity, and other 
important areas. As NIST Director and Under Secretary of Commerce for 
Standards and Technology, I also provide leadership in matters of 
science and technology, as do many other qualified senior officials in 
numerous government agencies.

    Question 2. How do these vacancies harm the scientific community?
    Answer. These vacancies do not harm the scientific community. The 
Trump Administration is committed to advancing technological 
development and conducting research and development to ensure national 
security, grow the economy, create well-paying jobs, and improve the 
lives of Americans across this great nation. The Administration has not 
experienced any trouble obtaining advice and input from the scientific 
community as it develops its agenda. While the Administration is 
working to identify qualified individuals fill vacant positions, 
experienced Federal staff are discharging many of the functions of 
these posts, consistent with the Administration's priorities and plans.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                             All Witnesses
    Question. I am concerned about the increased political interference 
in scientific research by this Administration. Can each of you identify 
the specific actions you are taking to protect scientists, both agency 
scientists and grant recipient scientists?
    Answer. NIST scientists are empowered to present and speak about 
their research. The December 16, 2011, Department of Commerce 
Memorandum on Scientific Integrity explicitly commits to the protection 
of scientific and technical findings from suppression or alteration by 
any official. This policy is applied to all research conducted at NIST, 
as well as to research supported by NIST, including all NIST contracts, 
grants, and cooperative agreements.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Dr. Walter Copan
    Question 1. Dr. Copan, you have stated that technology transfer is 
a top priority for NIST. What do you think are the challenges of 
technology transfer? What have you done at NIST to address those 
challenges and improve technology transfer from federally funded 
research to the private sector?
    Answer. Under my direction, NIST will advance the President's 
Management Agenda to modernize government for the 21st century through 
the associated Lab-to-Market Cross Agency Priority Goal in coordination 
with the White House's OSTP through our Return on Investment (ROI) 
Initiative. NIST has issued a Request for Information (RFI) in the 
Federal Register, to engage broadly with private-and public-sector 
stakeholders in a comprehensive assessment of our technology transfer 
landscape. As part of this ROI Initiative, NIST will hold four public 
meetings across the country in San Jose, California; Denver, Colorado; 
Chicago, Illinois; and at NIST's headquarters in Gaithersburg, 
Maryland. The intent of this initiative is to conduct a comprehensive 
assessment of the Federal technology transfer system that will identify 
opportunities to improve Federal technology transfer efforts, policies, 
and practices. The goal of this effort is to, where appropriate, 
streamline and accelerate transfer of technology from Federal R&D 
investments to attract greater private-sector investment for innovative 
products, processes, and services, as well as new businesses and 
industries that will create jobs, grow the economy, and enhance 
national security.

    Question 2. Dr. Copan, AICA authorizes NIST to provide financial 
and logistical support for research fellowships for undergraduate, 
graduate and post-graduate students. Can you tell me how investing in 
STEM research and education is essential to America's economic and 
global competitiveness, prosperity and quality of life? Are there 
specific examples of research projects that highlight the importance of 
this investment?
    Answer. A robust pipeline of future scientists, engineers, and 
technologists must be supported to assure U.S. competitiveness for the 
coming years and generations. The desired long-term impact is a healthy 
future economy that is driven by a strong science and technology sector 
being supplied by talented scientists, engineers, and technologists, 
including those with highly developed measurement science skills.
    To help expand the Nation's cumulative talent in measurement 
science, NIST has established a number of programs to support 
undergraduate, graduate, and post-graduate students including the NIST 
Postdoctoral Research Associateships Program, Graduate Student 
Measurement Science and Engineering Fellowship, Professional Research 
Experience Program, Summer Undergraduate Research Fellowship Program, 
and Summer Institute for Middle School Science Teachers.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Dr. Walter Copan
    Transportation Innovation and Cybersecurity. Dr. Copan, during your 
confirmation process I noted my leadership on establishing more SMART 
communities, and NIST's role in cybersecurity in this area, in your 
nomination hearing questions for the record. As well, the Senate 
Commerce, Science and Transportation Committee has been very active on 
working to safely advance autonomous vehicles. In your response, you 
said that you looked ``forward to being more fully briefed on this (my) 
legislation'' and on the status of the NIST work in relation to future 
transportation technologies.
    Question 1. Can you tell me what you've learned in relation to 
cybersecurity and the future of transportation?
    Answer. Over the past five years, NIST has increased its 
involvement with the transportation sector in the area of 
cybersecurity. NIST leadership in cybersecurity, the security and 
interoperability of the Internet of Things, and programs on artificial 
intelligence and machine learning supports a broad portfolio of NIST 
work related to measurements, standards and enabling technologies for 
autonomous ground-based, airborne and seaborne vehicle systems.
    The transportation sector has seen a rising awareness of 
cybersecurity risks to both installed infrastructure and future 
products. NIST has seen increased concern in the vehicle, aeronautics 
and railroad sectors, as well as increased reporting of discovered 
cybersecurity vulnerabilities by independent researchers.
    Specific NIST engagements include:

  1.  A joint project at National Cybersecurity Center of Excellence 
        (NCCoE) with the federally funded research and development 
        Volpe Center and U.S. Department of Transportation (DOT), 
        examining cybersecurity and privacy issues in connected 
        transportation;

  2.  A project with DOT at NIST's NCCoE that is applying both the NIST 
        Framework for Improving Critical Infrastructure Cybersecurity 
        and the NIST Privacy Framework to the data-sharing aspect of 
        the Columbus Smart City project;

  3.  Participation on various committees at the Society of Automobile 
        Engineers (SAE), including work on the cybersecurity issues 
        related to the on-board diagnostic 2 Port;

  4.  Participation in the joint SAE-ISO working group that is 
        developing the first international standard on cybersecurity 
        management in the development of vehicles;

  5.  Expert review and comments to DOT and vehicle industry 
        stakeholders on the proposed V2V communications structure; and

  6.  Consultation by NIST experts with the Automotive Information 
        Sharing and Analysis Center on that organization's 
        cybersecurity best practices guide.

    Question 2. Also, is your updated cyber framework useful in seeing 
into the future and helping to protect these emerging technologies?
    Answer. Yes. Version 1.1 of the Framework for Improving Critical 
Infrastructure Cybersecurity (the NIST Cybersecurity Framework), 
released in April 2018, provides a way to understand emerging 
technologies and manage their associated cybersecurity risk. The NIST 
Cybersecurity Framework prompts us to ask critical questions about a 
given technology, such as:

  <bullet> How will this emerging technology achieve all of the 
        cybersecurity outcomes defined in the Framework?

  <bullet> Are there any outcomes in the Framework that are difficult 
        or impossible to achieve with the emerging technology?

  <bullet> Can we make provision for those cybersecurity outcomes that 
        are difficult to achieve by helping to identify compensating 
        capabilities in the Framework to the achieve those outcomes?

  <bullet> Are there any additional security capabilities enabled by 
        the emerging technology that should be added to the Framework 
        to enhance the Framework's comprehensiveness?

    The Framework also supports organizations in answering important 
implementation questions about a given emerging technology such as:

  <bullet> Will implementing the technology introduce untenable risk to 
        my organization?

  <bullet> If not, what do I need to do to ensure secure implementation 
        and on-going risk management of this new technology?

    MEP Program Support. Dr. Copan, as part of your confirmation I 
asked you about whether manufacturers and Nevadans could count on the 
Commerce Department and NIST's continued commitment to the 
Manufacturing Extension Partnership. You provided me a response 
essentially about how the FY18 budget prioritized the military, 
national security and cuts in other areas were needed to ``keep the 
Nation on a responsible fiscal path.'' In addition, you underscored you 
would ``develop a more complete understanding of the status of the MEP 
program and to implement the planned transition to non-federal 
funding.''

    Question 3. Is that your actual opinion of what needs to happen 
with regards to cuts to MEP?
    Answer. The Administration and I continue to believe that to keep 
the Nation on a responsible fiscal path, it is necessary to make tough 
choices. As you know, Congress appropriated $140 million for the 
Manufacturing Extension Partnership Program (MEP) for FY 2018 and I 
will work to ensure that each dollar spent maximizes the return on 
investment to American taxpayers. The Administration's proposed 
elimination of Federal funding support for the MEP Program will not 
necessarily destroy the ability of the MEP Program to accomplish its 
mission. The MEP Program requires each local independent center to 
provide one dollar in non-federal funds to match each Federal dollar it 
receives. The Administration believes that local MEP Centers could 
continue to serve manufacturers without Federal support and that these 
centers would transition to entirely non-federal revenue sources.

    Question 4. Does that mean you don't see any value in continuing to 
ensure there is a Federal funding role, including in the benefit of our 
Nation's security, for the important and valuable role of the MEP 
program from my Nevada small and medium sized businesses?
    Answer. See response to prior question.
    Science Vacancies in the Administration. The Administration's 
commitment to science has understandably raised concerns because of 
actions it has and has not taken. While I could give you a long list of 
just the policy decisions alone, I wanted to ask about vacancies and 
their hiring freeze policy.

    Question 5. What are the detrimental impacts of the White House 
still not having nominated or filled various leadership positions 
within the White House Office of Science and Technology Policy (OSTP)?
    Answer. Since the President's inauguration the Office of Science 
and Technology Policy has built a team of over 50 staff members to 
advise the President and advance his science and technology agenda. 
That agenda touches a wide range of issues including advanced 
manufacturing, artificial intelligence, autonomous vehicles, 
biotechnology, quantum information science, cybersecurity, and other 
important areas. The Administration has not experienced any trouble 
obtaining advice and input from the scientific community as it develops 
its agenda. As NIST Director and Under Secretary of Commerce for 
Standards and Technology, I also provide leadership in matters of 
science and technology, as do many other qualified senior officials in 
numerous government agencies. While the Administration is working to 
identify qualified individuals fill vacant positions, experienced 
Federal staff are discharging many of the functions of these posts, 
consistent with the Administration's priorities and plans.

    Question 6. What impact, if any, did the questionable hiring freeze 
policy the Administration has employed have on your department, and the 
scientific progress you're making?
    Answer. NIST did not experience any impacts and is presently hiring 
personnel as needed. NIST continues to make outstanding scientific 
progress in all areas of measurement science.

                                  [all]

                  This page intentionally left blank.

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
